Cover Photographs and Credits


         Front cover photograph:            Breaking up of annual sea ice in the Ross Sea, Antarctica

         Back cover photograph:             Ceremonial South Pole

         Credit:                            Dr. Christine C. Boesz
                                            Inspector General
                                            National Science Foundation




The March 2001 Semiannual Report (24) to the U.S. Congress cover was designed by Gloria vanKan. She is the personal
secretary/assistant to the Inspector General and the OIG Liaison to the President’s Council on Integrity and Efficiency/
Executive Council on Integrity and Efficiency.


Printed on Recycled Paper
                        From the Inspector General

T
         his semiannual report highlights the activities and accomplishments of the
         National Science Foundation (NSF) Office of Inspector General (OIG)
         for the six-month period ending March 31, 2001. We issued 14 audit reports and reviews and
closed 62 investigations. During this period NSF continued the celebration of its 50th anniversary as the
only federal agency exclusively devoted to promoting basic research and education at all levels and
across all fields of science and engineering. NSF supports education and research through grants, contracts,
and cooperative agreements to about 1,800 universities, colleges, local K-12 schools, small businesses
and other research organizations throughout the United States.
     NSF annually receives about 30,000 proposals for educational and research projects; it funds
approximately one-third of them. In addition, NSF supports research in the Arctic and the Antarctic,
national research centers, and state-of-the-art research facilities and instrumentation. NSF does not
conduct research or operate laboratories. It seeks out and funds the best ideas, pursuing new knowledge
and discoveries.
      In this context, the OIG works collaboratively and constructively with NSF staff to identify
issues that may affect NSF’s success in administering its programs. During this period, we worked with
NSF management to ensure full understanding of the top management challenges. We focused attention
on outreach activities, including an “OIG Open House” which was designed to educate NSF staff
about our respective roles in preventing fraud, waste, and abuse and in handling misconduct in science
allegations. We held seminars at several colleges and universities to educate young researchers on
compliance requirements, conflict-of-interest policies, and terms and conditions of grant awards.
        Our audit work continued to identify institutional weaknesses in documenting or providing cost-
sharing contributions, in internal control systems, and in general oversight of NSF awards. We also
identified areas to improve in the management of the construction and commissioning of large research
facilities. Such projects have challenges that push the limits of technology and often involve complex
international funding arrangements.
      We also conduct civil, criminal, and administrative investigations. Our administrative investigations
focus primarily on allegations of misconduct in research. We continue to receive more allegations of
plagiarism than any other type of offense. While the root causes in these cases are not always clear, we
are concerned that our office is seeing the effect of competing demands placed on the research enterprise.
Because of these tensions, we are focusing outreach activities on integrity, conflicts of interest, and
accountability issues. We are also leading the IG community in its efforts to better understand the role
an OIG may play in investigating misconduct in research at their respective agencies.
      The OIG appreciates the cooperation, support and responsiveness of the National Science Board,
the Director, the Deputy Director, the Assistant Directors, the Chief Financial Officer, the Chief
Information Officer, and others in NSF. We are committed to assisting NSF as it addresses its management
challenges. We look forward to providing objective information and views that will be useful in helping
NSF move toward its vision: Enabling the Nation’s future through discovery, learning, and innovation.




                                                                              Christine C. Boesz, Dr.P.H.
                                                                                       Inspector General
                                                                                          March 31, 2001
Mission
We conduct independent and objective audits, investigations, and other reviews to
support NSF in its mission by promoting the economy, efficiency, effectiveness, and
the integrity of NSF programs and operations.



Vision
We will use our diverse and talented staff and cutting edge technology to have a
beneficial effect on NSF and the communities it supports. We will help prevent
problems, address existing issues in a timely and proportionate manner, and keep
abreast of emerging challenges and opportunities.



Values
                                                              Professionalism
To follow accepted technical and ethical standards of our disciplines; do our work
fairly and thoroughly; represent our results accurately, objectively, and with a sense
of proportion; and complete our work within a reasonable time so that it is available
for relevant decisions.

                                                                Accountability
To take responsibility for the quality of the work we do and treat similar matters
consistently.

                                                                       Flexibility
                     To think creatively, adopt new ways of addressing issues tailored
                     to unique circumstances, and build on successful processes to
                     make them better.

                                                                       Teamwork
                     To be respectful of others, seek common ground with them as
                     we do our work, and be honest, trustworthy, and straightforward.
                     To be cooperative without compromising our independence.
                                                                                     Contents
Audits & Reviews ......................................................................... 1
    Reporting Requirements ................................................................................. 2
    Chief Financial Officer’s Audit & Review of NSF Information Systems ........ 4
    Management Challenges ................................................................................. 4
    Large Infrastructure Project Management ...................................................... 6
    Polar Program Reviews ................................................................................. 11
    Award Administration................................................................................... 12
    Resolution of Prior Audits ............................................................................ 20

Investigations............................................................................. 25
    Administrative Investigations ........................................................................ 26
    Civil and Criminal Investigations .................................................................. 31
    Summary of Case Activity for this Period ..................................................... 34

Outreach Activities ..................................................................... 37
    OIG Open House ........................................................................................ 37
    OIG Assists Chinese Science Agency ........................................................... 38
    OSTP Research Misconduct Policy ............................................................... 39
    Integrity of Awards’ Systems and the Awards Process .................................. 40
    Research Ethics and Allegations of Misconduct in Science ........................... 41
    Feedback After Deferral ............................................................................... 42
    Conflict of Interests for NSF Employees ..................................................... 42

Statistical Data ........................................................................... 43
    Audit Reports Issued with Recommendations for Better use of Funds ........ 44
    Audit Reports Issued With Questioned Costs ............................................... 45
    Additional Performance Information ........................................................... 46
    Audit Reports Involving Cost-Sharing Shortfalls .......................................... 47
    Status of Recommendations that Involve Internal
    NSF Management Operations ...................................................................... 48
    List of Reports ............................................................................................. 49
    Audit Reports With Outstanding Management Decisions ............................. 52
    Investigations Case Activity and Case Statistics ............................................. 53
    Administrative Statistics ................................................................................ 54

Acronyms ................................................................................... 55
                                                              Audits Reviews   &
W
            e are responsible for auditing grants, contracts, and
            cooperative agreements funded by NSF, and for reviewing
            agency operations to ensure that they are conducted
effectively and efficiently. Many factors are used to determine what
to audit or review, including requests by National Science Board
members, key NSF decision-makers, and other government officials.
The OIG audit plan also considers NSF strategic goals and
management challenges, award recipients’ prior experience in
managing federal awards, and priorities set by the OIG.

Our financial and compliance audits determine:

1) whether costs claimed by award recipients are allowable,
   reasonable, and allocated to the proper award, and

2) if awardees had adequate procedures and controls to ensure                  HIGHLIGHTS
   compliance with federal laws and regulations, NSF requirements,
   and the terms and conditions of the award.
                                                                           Chief Financial Officer’s
      Our performance audits and reviews evaluate the effectiveness        Audit and Review of
and the efficiency of the administrative and programmatic aspects          NSF Information Systems 4
of NSF and awardee operations. In addition, by law we conduct the
annual audit of NSF’s fiscal year financial statements, including
                                                                           ManagementChallenges    4
evaluations of internal controls and data processing systems. We
also submit annually to Congress a list of NSF’s major management
challenges.                                                                LargeInfrastructure
                                                                           ProjectManagement       6

                                                                           CostSharing             7

                                                                           PolarProgramReviews    11

                                                                           Award Administration   12

                                                                           Resolution of
                                                                           Prior Audits           20



                               OIG Semiannual Report • March 2001      1
Reporting Requirements
                     Under the Inspector General Act, we report to the Congress every six
                     months on the following activities:


            1, 43    R   eports issued, significant problems identified, the value of
                         questioned costs and recommendations that funds be put to
                     better use, and NSF’s decisions in response (or, if none, an
                     explanation of why and a desired timetable for such decisions).




           25, 54    M     atters referred to prosecutors, and the resulting prosecution
                           and convictions.




           48, 52    R    evisions to significant management decisions on previously
                          reported recommendations, and significant recommendations
                     for which NSF has not completed its response.




    none to report   L  egislation and regulations that may affect the efficiency or
                         integrity of NSF’s programs.




    none to report   O    IG disagreement with any significant decision by NSF
                          management.




    none to report   A   ny matter in which the agency unreasonably refused to provide
                         us with information or assistance.




                 2
                                            OIG Semiannual Report   March 2001




  AUDIT RELATED REPORTING TERMS

Much of the terminology that we use in describing
issues discovered in our audits and reviews is
complex. Some of the more common terms and
definitions that we use are:

Questioned Cost.

Auditors question costs because of an alleged
violation of a provision of a law, regulation, grant,
cooperative agreement, or contract. In addition, a
questioned cost may be a finding in which, at the
time of the audit, either a cost is not supported by
adequate documentation, or the expenditure of
funds for the intended purpose is deemed
unnecessary or unreasonable. It is important to
note that NSF is responsible for making a
management decision regarding questioned costs
that includes an evaluation of the findings and
recommendations included in the audit report. It is
the management decision that may transform a
questioned cost into a disallowed cost.

Funds Put to Better Use.

Many times audit recommendations identify ways
to improve the efficiency of programs that can lead
to tangible cost savings over the life of an award.
These are not questioned costs, but rather methods
of making the most efficient use of federal dollars,
such as reducing outlays, deobligating funds, or
avoiding unnecessary expenditures.

Compliance or Internal Control Issues.

Audits often result in recommendations either to
improve the auditee’s compliance with NSF and
federal regulations, or to strengthen the auditee’s
internal control structure to safeguard federal funds
from fraud, waste, abuse, and mismanagement.




                                                                    3
Audits & Reviews


                   Chief Financial Officer’s
                   Audit & Review of NSF Information Systems
                   NSF Receives its Third Consecutive
                   Unqualified Audit Opinion On Financial Statements

                        In accordance with the Chief Financial Officers (CFO) and Government
                   Management Reform Acts, we completed an audit of NSF’s financial statements for
                   FY 2000. The agency received its third consecutive unqualified opinion on its financial
                                      statements, which include the balance sheet and the related
                                      statements of net cost, changes in net position, budgetary
                                      resources, and financing. The audit determined that the
                                      statements were presented fairly, and in all material respects, in
                                      conformity with generally accepted accounting principles.

                                              The audit included a report on internal control over financial
                                        reporting that did not identify any significant internal control
                                        deficiencies adversely affecting NSF’s ability to record, process,
                                        summarize and report financial data. This marks the first time
                                        that no significant internal control deficiencies were reported
                   for NSF’s financial reporting activities. The FY 2000 review of internal controls
                   included a comprehensive evaluation of NSF’s electronic data processing system
                   controls and tested the vulnerability of NSF’s systems to penetration by unauthorized
                   persons both external and internal to NSF. The review also evaluated the controls
                   over three major computer applications.

                        The audit identified and reported one instance of potential noncompliance with
                   federal appropriations law. The reportable noncompliance occurred when NSF
                   expended funds from its Research and Related Activities (R & RA) appropriations to
                   supplement potential shortfalls in its Major Research Equipment appropriations for a
                   large infrastructure project. This potential noncompliance with law was initially
                   disclosed in an OIG audit and is discussed further on page 6.

                         In the next semiannual reporting period, we will issue our FY 2000 management
                   letter, which addresses other matters involving NSF internal controls over financial
                   reporting and award management.



                   Management Challenges
                        For the fourth year, Congress has requested that each Inspector General submit
                   an annual list of the top ten management challenges facing his or her agency.
                   Responding to this request has become an integral part of our strategic planning
                   process. After careful consideration, we submitted to Congress the following challenges
                   that we deemed most crucial to the future success of the agency.


              4
                                                                 OIG Semiannual Report     March 2001


Management of Large Infrastructure Projects: NSF spends approximately $1 billion
a year in the aggregate for cutting-edge research facilities and equipment projects,
some of which cost hundreds of millions of dollars. Successful management of
these projects and programs requires a more disciplined project management approach.

Cost Sharing: Significant problems persist with award recipients not meeting their
cost- sharing requirements. Because of the importance of these contributions to the
research community, and the detrimental impact a shortfall can have on a project, we
consider improvements in administering cost sharing to be among the most important
priorities for NSF management.

Management of U.S. Antarctic Program: Charged with managing all U.S. activities
in the Antarctic as a single program, NSF’s Office of Polar Programs (OPP) funds
research and provides the infrastructure and logistics necessary to conduct scientific
experiments. OPP staff must not only have scientific knowledge, but must also be
able to oversee and monitor the performance of contractors engaged in delivering a
broad range of services to the American scientific community in the harsh polar
environment.

Award Administration: NSF is challenged to monitor its awards adequately, in terms
of scientific accomplishments and compliance with award agreements and federal
regulations. The agency needs to establish more coordinated oversight between its
program officers and its grant and contract officers to ensure better sharing of
information and more effective award administration.

Merit Review: NSF must continue to ensure that reviewers correctly apply NSF’s
review criteria, that the merit review process gives due consideration to ideas,
individuals, and institutions which have not received past support, and that the process
is effectively administered.

Data Security: Next year NSF will depend on its automated computer systems to
manage over $4 billion in funds and to process over 35,000 grant proposals. Therefore,
it is imperative that NSF’s systems are developed and operated with appropriate security
controls to reduce the ever increasing risk of unauthorized access that could
compromise data integrity, confidentiality, and/or availability.

FastLane: FastLane facilitates administrative transactions with the research community
via the Internet. The development and implementation of FastLane, which began in
1994, has moved the agency closer to the goal of establishing a widely accessible
paperless proposal and award process. However, since FastLane serves as the primary
interface between NSF and its award recipients and is critical to many of NSF’s
administrative plans and goals, management must continue to monitor its progress to
ensure that the system is user-friendly and reliable.




                                                                                           5
Audits & Reviews


                   Government Performance Results Act (GPRA) Data Quality: A recent GAO study
                   listed as a key weakness of NSF’s FY 2000 Performance Plan that it, “provides limited
                   confidence in the validation and verification of data”. To address this criticism the
                   agency has contracted with a public accounting firm to assist in validating the
                   performance data it reports. We believe that NSF should follow-up on its search for
                   ways to ensure data quality.

                   Work Force Planning and Training: Although NSF has had significant increases in
                   its program responsibilities and budgets in recent years, salaries and expenses have
                   remained relatively flat. Concerns about the adequacy of staffing come at a time
                   when the government as a whole is facing succession planning and recruiting problems.
                   In addition, NSF’s reliance on personnel who serve under a term appointment poses
                   a challenge to the agency to ensure that such staff is adequately trained to administer
                   awards.

                   Fostering a Diverse Scientific Workforce: NSF’s most recent performance plan
                   promises that the agency will begin implementing new strategies to increase diversity.
                   However, because such programs are difficult to implement, NSF needs to define its
                   diversity strategies clearly and develop concrete steps to implement them.

                        During this semiannual period we are featuring reports that address issues related
                   to the first four of these NSF challenges.



                   Large Infrastructure Project Management
                   NSF Needs Improved Management over Large Facility Projects

                         As one of NSF’s large infrastructure projects was nearing completion and entering
                   its operations phase, we performed an audit to determine whether the project was
                   being constructed on time and on budget, and whether partner contributions would
                   provide sufficient cash to fund operations for the next five years. We found that this
                   facility plans to spend at least $52.8 million more than its approved construction
                   budget and is using funds from its operations budget to cover these costs. This
                   practice has resulted in misstating both the operations and construction costs and is
                   potentially a violation of federal appropriations law. The problem occurred because
                   NSF does not have adequate policies and procedures in place to address the complex
                   problems involved in overseeing and administering large infrastructure awards.

                        In addition, we found that NSF has funded $6.2 million more than its required
                   financial commitment and thereby has exceeded the 50 percent funding cap intended
                   by Congress. This occurred because some of the partners have been unable to pay
                   either on time or at all toward operations. Further $3.7 million of foreign contributions
                   have been held in reserve against future shortfalls, rather than being released to the




              6
                                                                  OIG Semiannual Report     March 2001


project and used to offset the NSF advances of $6.2 million. There is also a high risk
that some partners will continue to be unable to meet their funding commitments
and that NSF’s funding levels will remain above the 50 percent cap.

      We recommended that NSF update and develop as necessary its policies and
procedures to assist its managers in administering large capital projects, such as those
funded from the Major Research Equipment appropriation account. Further, we
made recommendations intended to ensure that the National Science Board and
NSF senior management provide more oversight for large capital and infrastructure
projects. We also recommended that NSF release to the project the $3.7 million in
foreign contributions that are being held in reserve, and that it reevaluate its own
level of contributions to the project in light of its 50 percent spending cap. NSF is a
member of the governing board that provides oversight and supervisory direction to
the research facility. We recommended that NSF encourage the facility’s board to
reevaluate its cash plans for the years 2001-2005 and to assess the ability of all the
partners to meet their commitments to provide for these cash needs. We also
recommended that NSF encourage the facility’s board to develop a contingency plan
that equitably distributes the responsibility for funding cash shortfalls among the
partners.

      In response to our draft report, NSF agreed with some of our findings and
recommendations and is currently working toward corrective action including updating
its policies and procedures to strengthen the management and oversight of large
projects, developing guidelines for the use of foreign contributions currently held in
reserve, and providing a cash-flow plan for the facility that includes a risk analysis of
partner contributions. NSF states that over time its contributions to the facility will
not exceed the 50 percent cap intended by Congress. However, NSF also states that
the costs of the facility have been appropriately classified between the construction
and operations budget and disagrees that operations funds are being used to cover
construction costs. NSF also believes that its allocation of costs between its
appropriations accounts was within its discretion under the guiding principles of
federal appropriations law. Nevertheless, NSF has agreed that in the future it will not
supplement its Major Research Equipment appropriation account with funds from
other sources.

Cost Sharing

      Our September 2000 Semiannual Report discussed significant problems with
awardees’ ability to meet their cost-sharing requirements. Specifically, in that
Semiannual (pages 9 and 10) we reported that a western university foundation could
support only $8 million of the $38 million (21%) it claimed as cost sharing. In this
Semiannual Report we discuss a court decision on a lawsuit filed against NSF by the
foundation of another campus in the same university system. As we discuss below,
the foundation at that campus sued NSF over the return of funds we questioned as a
result of unsupported cost sharing. The district court agreed with NSF’s position
and directed the foundation to make repayment.


                                                                                            7
Audits & Reviews


                        Also, four audit reports on the same university system identified cost-sharing
                   issues at three additional campuses. These issues included the lack of cost-sharing
                   policies and procedures, overvaluation of claimed cost sharing, particularly in the
                   areas of labor effort spent on awards and donated software, inadequate monitoring
                   of sub-recipients’ cost sharing, and the failure to report or certify cost-sharing amounts
                   annually to NSF. Having identified cost sharing as a concern at 22 percent of the
                   university’s campuses, we initiated an audit of the entire system, beginning with a
                   management control survey of grant administration at the university level. We plan
                   to report on the results of this survey as well as the audits of cost sharing at several
                   other of the university campuses in a future semiannual period.

                   Court Confirms Cost Sharing As Contractual Obligation
                         In the March 1999 Semiannual (pages 24 and 25) we reported that a university
                   foundation had promised to provide cost sharing in the form of an “externship”
                   program in which the participants would be paid while working for industrial
                   participants. During our audit, we found that, although the university foundation
                   claimed cost sharing for more than 40 externships or jobs related to the program, it
                   had actually provided only two jobs and 16 externships. We concluded that failure to
                   meet externship obligations contributed to a substantial shortfall in cost sharing, and
                   that the university foundation should repay NSF $145,351, the excess federal
                   contribution to the project. Additional NSF agency reviews by the Cost Analysis and
                   Audit Resolution Branch, by an appeals panel reporting to the Division of Grants
                   and Agreements, and by the Office of the General Counsel, sustained $139,152 of
                   the disallowed amount.

                         The university foundation declined to reimburse NSF for the $139,152 and
                   sued the agency. It argued that it was not required to make repayment because NSF
                   funded the award pursuant to legislation requiring that the federal government provide
                   not more than 50 percent of the estimated costs of a funded project. Since NSF had
                   not exceeded the 50 percent limit of project costs, the university foundation maintained
                   that NSF’s funding was appropriate. Although the university foundation’s cost sharing
                   was less than 50 percent of the estimated costs, it nevertheless stated that the statutory
                   language referencing NSF’s responsibility for funding estimated costs should take
                   precedence over the award terms referencing actual costs.

                         In January 2001, a district court rejected the university foundation’s argument
                   and concluded that its interpretation would require an agency to pay an awardee half
                   the amount of proposed costs, regardless of whether or not the awardee performed
                   as promised under the award terms. The court stated that the university foundation
                   had an obligation to follow the terms of the award, and that the statute did not alter
                   these terms. It directed the university foundation to refund the $139,152 to NSF.
                   This is the first court decision in the country declaring that cost-sharing commitments
                   are a part of an award recipient’s contractual obligations. The university foundation
                   has appealed the district court decision.



              8
                                                                  OIG Semiannual Report     March 2001


Cost-Sharing Audits at Two Educational Institutions Reveal
Problems With Cost-Sharing Compliance and Internal
Controls
      To assess the risk of cost sharing nationwide, we selected for audit eight
educational institutions whose awards required cost sharing of $500,000 or more.
The eight included both small and large geographically dispersed institutions with
various numbers of awards. In this semiannual period we are reporting on the audits
of the first two educational institutions, a western state college and a northeastern
state department of education. At both institutions we reviewed internal controls
over cost sharing and compliance with federal and NSF cost-sharing requirements.
Federal regulations require that cost sharing be verifiable from the recipient’s records,
necessary and reasonable for the proper and efficient accomplishment of project or
program objectives, and allowable under the applicable cost principles. NSF requires
that all awardees with cost-sharing obligations of $500,000 or more per award, certify,
both annually and in the final project report, to the actual cost-sharing amounts
provided.

      The western state college had inadequate controls to account for its cost-sharing
obligations. NSF provided the college an award for $75,000 with a requirement for
the college to provide another $572,332 of cost sharing. At the time of the audit, the
college claimed that it had provided almost $1 million of cost sharing. We questioned
60 percent of this amount, including almost $500,000 of costs that were not allocable
to the award. Specifically, the college claimed cost sharing for the entire
telecommunications infrastructure for 16 schools, although only seven schools
participated in the project. It claimed another $100,000 for which it could not provide
adequate support. In addition, the college did not submit the required annual and
final cost-sharing certifications due to a lack of understanding of these certification
requirements. As a result of the college providing less cost sharing than required by
the award agreement, we recommended that NSF’s costs be proportionally reduced
by $20,423.

      A northern state department of education also did not have adequate controls
over cost sharing. Specifically, it did not maintain separate accounts for the cost
sharing on two NSF awards. Commingling the cost sharing for more than one award
in the same account makes it difficult to determine whether the awards individually
meet their cost-sharing requirements, thereby hampering NSF’s ability to administer
the award. In addition, it reported to NSF estimated, not actual, cost-sharing amounts.
      We recommended that both institutions strengthen their internal controls over
cost sharing. We also recommended that the institutions file annual and final cost-
sharing certifications that comply with NSF’s Grant General Conditions.




                                                                                            9
Audits & Reviews


                   Two Southern Institutions “At Risk” Of Not Meeting Cost-
                   Sharing Obligations
                          Audits performed on two state governments under the Single Audit Act and
                   Office of Management and Budget Circular A-133, Audits of States, Local Governments,
                   and Non-Profit Organizations, found two NSF-funded institutions at risk of not meeting
                   their cost-sharing obligations before the expiration of their awards. A research center
                   affiliated with a southern state university had promised $2,400,000 of cost sharing.
                   However, the auditors found that because the awardee had mistakenly recorded its
                   cost sharing obligation to be $491,459 less than the promised amount, the center was
                   at risk of not meeting its cost sharing requirement. This matter is now in audit
                   resolution at NSF’s Division of Contracts, Policy, and Oversight.

                         A second southern state university promised $771,500 of cost sharing for an
                   NSF award. The university had provided $463,369 of the promised amount. In
                   fiscal year 1999, the auditors determined that the remaining $308,131 was at risk of
                   not being met before the award expired. The university was notified and by fiscal
                   year 2000 it had funded expenditures sufficient to meet the at-risk cost sharing. The
                   university also agreed to assign a specific individual in its Controller’s Office to be
                   responsible for ensuring that future cost-sharing reports are submitted to NSF in a
                   timely manner.

                   Mid-Atlantic Non-Profit Has $42,942 Cost-Sharing Shortfall
                        An OMB A-133 audit of a mid-atlantic non-profit corporation questioned
                   $45,942 of costs in an NSF award because the corporation did not comply with the
                   cost-sharing requirements specified in the award agreement. The organization
                   proposed to cost share a percentage of funds that was unrealistically high and could
                   not provide the required match from local funds. In response to the audit finding,
                   the organization stated that it has received a one-year, no-cost extension from NSF
                   and expects to meet its cost-sharing requirement during the extension period.




             10
                                                                 OIG Semiannual Report    March 2001


Polar Program Reviews
Western For-Profit Entity Overcharges NSF $79,467
In Fringe Benefits
The United States Antarctic Program (USAP), initiated in 1959, is carried
out under the terms of the Antarctic Treaty and Agreed Measures. NSF
manages and funds the USAP. Through its Office of Polar Programs (OPP),
NSF provides management for the research, logistics, and operational support for
the USAP. The objectives of the research program are to understand the function,
evolution, and adaptations of land and ocean species and ecosystems; the geology
and geologic history of the continent and its surrounding ocean basins; and the
structure and dynamics of the magnetosphere and ionosphere.
      For the period of October 1, 1989, through March 31, 2000, NSF had a
$890,994,350 contract with Antarctic Support Associates (ASA), a western for-profit
organization, to provide science logistics, operations, engineering, and construction
support to the USAP.

     Effective April 1, 2000, NSF awarded this contract to a new contractor, Raytheon
Polar Services Company (Raytheon). To assist the NSF Contracting Officer in closing
out the former contract to ASA, we conducted an audit of costs incurred for the
period January 1, 1999 through March 31, 2000. (Our prior audits of this contract
reviewed costs incurred in earlier periods up to January 1999.) Of $170,413,763 in
claimed costs, we questioned $79,467 in fringe benefit costs charged to the contract,
because the fringe benefit rates used to bill NSF were greater than the actual fringe
benefit rates incurred by ASA. ASA also did not maintain a system to adequately
identify contract commitments and obligations at the close of the contract period.
Failure to maintain a system to track commitments and obligations could result in
both ASA and Raytheon paying vendors for the same purchases.

     ASA also did not maintain adequate controls over government property and
equipment. Property and equipment valued at $415,578 could not be located in a
physical inventory that was conducted during the phase-in of the award to Raytheon.
Some property could not be identified by model or serial number, location, or type
of equipment. During the course of the audit we also noted that ASA needed to
resolve with NSF issues of an interest and penalty liability for unreported state sales
tax and underspent information infrastructure funds.

     ASA agreed with the questioned fringe benefit costs, and we have referred the
report to NSF’s Division of Contracts, Policy, and Oversight to resolve with ASA the
other issues, findings, and observations.




                                                                                          11
Audits & Reviews


                   Status of Polar Construction Projects
                         Each quarter the OIG, along with NSF program and contract staff, participates
                   in joint quarterly meetings to assess the progress of the South Pole Safety and
                   Environmental (SPSE) and Station Modernization (SPSM) projects. We consider
                   these meetings to be valuable because they assist NSF management in proactively
                   identifying problems and enable our office to monitor the status of their efforts.

                         In our last update of the SPSE project, we wrote that work on the final phase
                   was expected to be accepted by the Foundation in January 2001. OPP is reporting
                   that this project – including a new garage/shops complex, a fuel storage facility, and
                   a power plant – was completed and conditionally accepted pending completion of a
                   few remaining punchlist items, thereby marking the end to this five-year, $25 million
                   effort. We are currently coordinating an audit of the former support contractor’s
                   financial records, including records pertaining to this project, and expect to report the
                   results of this audit in the next semiannual period.

                          With regard to the SPSM project, OPP reported that design work on the facilities
                   is 95 percent finished, and is 20 percent complete on the computation and
                   communications systems. During the 2000/2001 austral summer, the shell for the
                   first phase of the elevated station was erected and enclosed. OPP also completed
                   during this past season the design, procurement, and assembly of earth station
                   electronics and a nine meter satellite earth station. Once reliably operational, this
                   system will provide communications over two satellite systems (MARISAT 2 and
                   GOES 3). This will improve data communications quality, and increase bandwidth
                   and time of day coverage for voice and data communications. Improved data
                   communications quality will enhance Internet service, which supports all station
                   science, health/telemedicine, operations management, and quality-of-life activities.

                        The estimate of the cost to complete SPSM, initially developed in 1998, is being
                   updated and refined to incorporate procurement and construction activities to date
                   and to adjust for any cost changes occasioned by the transition to Raytheon, the new
                   support contractor, or other factors such as fuel cost increases and delays caused by
                   weather. The estimate of the completion cost is periodically reviewed by OPP to
                   ensure that project management is based on the most accurate and up-to-date
                   information available. To date, SPSM remains on schedule, but, as reported in our
                   September 2000 Semiannual report (page 17), air logistics continue to challenge the
                   project because of limited crew availability and difficult weather conditions. OPP
                   continues to evaluate options and alternatives for meeting the project’s logistics
                   requirements.

                   Award Administration
                        In carrying out its mission, NSF makes awards (grants, contracts, and cooperative
                   agreements) to colleges, universities, other nonprofit organizations, and for-profit
                   organizations. Through audits and other reviews, we work with NSF management to
                   promote effective oversight of its awards, programs, and operations.

             12
                                                                  OIG Semiannual Report     March 2001


Grant Audits
     During this semiannual period, we completed four audits of NSF award
recipients. In general, these audits revealed issues related to cost sharing, financial
management and internal controls. A summary of the results for each of these grant
audits is provided below.

University Service Center Overcharges NSF Awards

     We reviewed costs charged to NSF awards by a southern university’s service
centers. The centers operate as in-house, non-profit enterprises to provide institutional
users with access to highly specialized scientific equipment or other services. Federal
regulations require that these centers recoup no more than their total operating costs
through direct charges to institutional users at approved billing rates. The university
must review and adjust the billing rates periodically to ensure that the centers are
complying with federal regulations and do not accumulate significant amounts of
surplus cash over a long-term period.

     Our review found that three of the university’s centers accumulated a surplus
cash balance of $746,494 over the period March 21, 1983, through August 31, 1995.
Of this amount, we determined that NSF awards were overcharged by $134,069.
However, we considered the overcharges to NSF awards to be resolved because the
university provided evidence of unbilled services to NSF awards between September
1, 1995, and August 31, 1999, offsetting the previously incurred overcharges.

     We believe the overcharges and the accumulation of surplus cash occurred
because the university did not have written policies and procedures for the operation
and management of its centers. In addition, billing rates were not documented,
periodically reviewed, or adjusted by the university.

     Based on our recommendations, the university promulgated written policies
and procedures for the operation and maintenance of its centers in order to prevent
overcharging of costs to federal awards in the future.

Eastern Non-Profit Consortium Needs To Strengthen Its Internal
Control Structure

     We found deficiencies in the internal control structure for ensuring financial
compliance with NSF award conditions and federal regulations at an eastern non-
profit consortium. The consortium received an award under the NSF Teacher
Enhancement Program for $4.3 million and promised cost sharing of $3.2 million
for approximately four and one-half years. The consortium’s main mission was to
develop a comprehensive curriculum for school districts; to develop strategies for
reforming science education in schools through coordinating community outreach
and communication efforts between scientists and educators; and to provide teacher
development and training in science.

                                                                                            13
Audits & Reviews


                         Of almost $3.1 million in costs claimed by the consortium, we questioned
                   $84,576. Salary and fringe benefit costs of $76,364 were questioned because one
                   employee’s salary and benefits were charged improperly to the NSF award. Charges
                   for another employee’s salary and benefit costs were inequitably allocated among the
                   NSF award and other projects also benefiting from the employee’s efforts. Additionally,
                   we questioned $1,443 in indirect costs related to the questioned salary and fringe
                   benefit costs and costs claimed as indirect costs that were direct costs. We also found
                   that the consortium did not refund to the government $826 in earned interest on
                   federal funds and had claimed $5,943 in costs that were not reflected in its accounting
                   records. Further, at the time of our review the consortium had inappropriately claimed
                   $180,555 in cost sharing based on cash receipts, which had not been expended on the
                   project. If this amount is not expended on the project by the expiration date of the
                   award, it will become a questioned cost to the extent that NSF has exceeded its
                   proportional cost-sharing contribution.

                        The questioned costs arose due to internal control deficiencies, including lack
                   of management oversight regarding the proper allocation of costs, lack of cash
                   management procedures, and lack of a system to verify salary amounts paid.
                   Specifically, the consortium did not have all necessary approval processes in place for
                   cost allocation; did not request NSF funds on a reimbursement basis, resulting in
                   excess cash on hand; and did not have a system in place to verify salary and benefits
                   paid by a separate organization that is reimbursed by the consortium.

                        The consortium agreed with our audit findings and has indicated that it will take
                   actions to correct deficiencies in its internal control structure and cash management
                   procedures and make necessary adjustments to the costs charged to the NSF award.

                   Midwestern School District Needs to Document Labor and
                   Participant Stipend Costs

                          We audited a cooperative agreement between NSF and a midwestern school
                   district to assist the school district in reforming its K-12 mathematics and science
                   education program. Of the $11 million in costs claimed by the school district, we did
                   not identify any questioned costs. In addition, the results of our testing disclosed no
                   weaknesses in the school district’s internal control structure. However, we found
                   that the school district was not in full compliance with federal cost principles because
                   it did not require its employees to complete timesheets or sign semiannual certifications
                   to support labor and participant stipend costs charged to the cooperative agreement.
                   We were able to substantiate that the costs charged under the agreement were related
                   to employees’ work on the agreement only by interviewing the school district’s project
                   director and other personnel and reviewing other available documentation.

                        Federal rules require completed time sheets or signed certifications to provide
                   NSF with assurance that labor and stipend costs charged to the award are accurate
                   and reflect the actual work performed by employees. We recommended that the
                   school district amend its policies to conform with the federal cost principles related


             14
                                                                    OIG Semiannual Report     March 2001


to the documentation of these types of costs. The school district concurred with our
finding. We have forwarded our report to NSF’s Division of Contracts, Policy, and
Oversight for final resolution.

Northwest Tribal Federation Claims Unsupported and Unallowable
Costs

      The NSF Rural Systemic Initiatives (RSI) program was designed to improve the
scientific and mathematical literacy and achievement of all students in a region. We
audited an RSI award issued to a northwest tribal federation that is responsible for
enhancing and promoting the cultural, economic, and political voice of the people
that the federation represents. For this award the federation claimed $8.9 million in
costs incurred. We questioned a total of $421,852 in claimed costs and interest
income. Contrary to NSF and federal requirements, the federation charged $264,830
of salaries and related fringe benefits to the award based on budgeted amounts rather
than on actual and documented payroll costs. We also questioned $88,505 in other
award costs that the federation claimed in excess of the actual incurred costs.
Additionally, we questioned $10,146 of travel costs, $40,200 of materials and supplies,
and $4,096 of subaward costs charged to the award because these costs were either
not related to the award or not supported by source documentation. Further, we
found an additional $14,075 in interest income earned on NSF advanced funds that
the federation should have remitted to the U.S. Department of Health and Human
Services.

     The federation disagreed with some of the questioned costs, and we have
forwarded the report to NSF’s Division of Contracts, Policy, and Oversight for
resolution.

Review of NSF’s Experimental Program to Stimulate Competitive
Research (EPSCoR)

     NSF’s EPSCoR program seeks to develop research infrastructure in states that
have historically received a small share of federal research dollars. Initiated in 1978,
EPSCoR is managed by an office within NSF’s Directorate for Education and Human
Resources (EHR). In FY 2000, the program had a budget of $48 million; nineteen
states and the Commonwealth of Puerto Rico participated.

     We reviewed EPSCoR to assess how well the program complies with selected
NSF requirements and addresses NSF’s goals for it. Our review included consideration
of program administration at NSF and project administration in two states, Mississippi
and Maine.

Building Infrastructure. We found that the EPSCoR program played a constructive
role in building a “research culture” at universities that lack the physical facilities and
institutional practices that support research. Many such universities build research



                                                                                              15
Audits & Reviews


                   infrastructure by funding groups composed of a critical mass of researchers with
                   similar interests. Institutional leadership plays a crucial role in identifying and
                   developing promising niches for development. To become competitive within a
                   niche requires assembling researchers at various career stages, not all of whom need
                   help in becoming competitive for federal research funds. In addition, fostering
                   competitiveness may involve funding researchers who are not likely to remain in the
                   EPSCoR state.

                   Bringing Researchers into the Mainstream. The EPSCoR program tries to bring
                   new researchers into the mainstream of NSF funding by its “co-funding” initiative.
                   Through co-funding, EPSCoR helps NSF’s regular research programs support
                   proposals that, though meritorious, do not rank high enough to warrant support
                   from regular program funds. We found that co-funding was operating much as it was
                   designed to do, but that the program was targeted at broad areas of science and did
                   not appear to have the focused impact on specific research areas that EPSCoR’s
                   infrastructure awards had. We also noted that NSF does not adjust the EPSCoR
                   program’s co-funding contribution in the small number of cases where the principal
                   investigator (PI) moves to a non-EPSCoR state and the award is transferred to the
                   PI’s new university. We recommended that NSF develop an administrative mechanism
                   to ensure that EPSCoR co-funding dollars do not support, either directly or indirectly,
                   researchers who have moved to non-EPSCoR states.

                   State EPSCoR Committees. The EPSCoR program requires that states form
                   committees representing the views of leaders in various institutional sectors, including
                   business, government, and higher education. EPSCoR committees are supposed to
                   guide research infrastructure planning in their states. In the two states we visited, we
                   found that EPSCoR had facilitated statewide coordination in higher education and
                   research and played an integral part in economic development planning. We also
                   concluded that the committees’ efforts to build broad and sustainable partnerships in
                   support of research-based development could be improved by cultivating
                   knowledgeable persons from outside higher education to play more prominent roles
                   in EPSCoR. We recommended that NSF and Mississippi make business and state
                   government participation in Mississippi’s EPSCoR committee activities more
                   structured and formal.

                   Administration of EPSCoR awards. We examined how NSF’s EPSCoR Office
                   administered its large infrastructure awards. We found widespread agreement that
                   NSF project monitoring was reasonable, that proposal review had been constructive,
                   and that more NSF site visits could improve project performance. Our visit to
                   Mississippi provided evidence for this latter point: it catalyzed an organized effort in
                   the state to create a dedicated source of state funds to meet federal matching
                   requirements. We also heard numerous suggestions that NSF develop general eligibility
                   criteria for EPSCoR support and not simply publish a list of eligible states. We
                   recommended that NSF develop such criteria to improve program administration.




             16
                                                                  OIG Semiannual Report     March 2001


Interagency Coordination. Our review of coordination among the federal agencies
with EPSCoR-like programs indicated that current practices were adequate and posed
no significant problems for the states that we visited.

Financial Compliance by EPSCoR Awardees. Our examination of awardee
institutions’ compliance with NSF financial and administrative requirements indicated
that awardees needed to monitor their subcontractors more closely.

     In addition to our formal recommendations, we made numerous observations
and suggestions in our report to help managers focus their own efforts to improve
performance. EHR and the EPSCoR awardees in the two states we visited said they
found our report useful, and EHR generally agreed with our recommendations.
Maine EPSCoR was also generally in agreement with our recommendations.
Mississippi EPSCoR largely disagreed with our financial recommendations. However,
Mississippi was receptive to our suggestion to form an advisory committee to enhance
business and government participation in the state’s EPSCoR effort.

Contract Audits
      In addition to the grant audits and review described above, we conducted audits
of contracts received by three contractors, as requested by NSF’s Division of Contracts,
Policy, and Oversight. In general, we found that the contractors adequately accounted
for NSF funds, although there were instances where each contractor could improve
its compliance with NSF award conditions and federal regulations, or strengthen
internal controls. A summary of the results for each of these contract audits is
provided below.

Audit of an NSF Software Support Service Contractor

      We audited three task orders issued to a midwestern for-profit corporation that
provided systems development and computer support services to NSF. Of $8.2
million in costs claimed under the task orders, we questioned $14,242 because the
contractor could not locate time records for claimed labor costs on one of the task
orders. The contractor stated that it had misplaced the time records and that it was
having difficulty locating them.

      In addition, the contractor did not submit indirect cost rate proposals to the
Defense Contract Audit Agency (DCAA) for fiscal years ended March 31, 1997,
1998, 1999, and 2000 to satisfy the contractual provisions requiring final rates to be
used in reimbursing indirect costs. Future audits of the indirect cost rate proposals
and negotiations by DCAA could change the amount of indirect costs the contractor
has currently claimed on the NSF task orders. Because NSF authorized the contractor
to claim indirect costs using provisional indirect cost rates, the contractor has charged
the agency approximately $2 million on two task orders. However, if the audit finds
actual indirect cost rates to be lower than the provisional indirect cost rates used to
charge the NSF awards, the contractor will need to reimburse NSF for the difference.


                                                                                            17
Audits & Reviews


                         We recommended that the contractor submit indirect cost rate proposals to
                   DCAA for audit and negotiations and adjust its claims to NSF if the actual rates are
                   less than the provisional rates it used to bill indirect costs to the NSF awards.

                        The contractor agreed that it was unable to provide the documentation to support
                   the costs questioned by the auditor. It also agreed to submit its indirect cost rate
                   proposals to DCAA for review and negotiation. We have forwarded our report to
                   NSF’s Division of Contracts, Policy, and Oversight for audit resolution.

                   Mid-Atlantic Non-Profit Organization Claims Unallowable Costs

                        We audited two NSF awards to a mid-atlantic non-profit science organization.
                   The first award required the organization to furnish services, personnel, material,
                   equipment, and facilities for a longitudinal doctorate study. The second award provided
                   funds to explore the current status of high school mathematics and science education
                   by evaluating advanced-student curricula, such as the Advanced Placement and
                   International Baccalaureate programs.

                         Of $3.2 million of costs claimed by the organization for both awards, we
                   questioned $40,235. The organization over-billed NSF $9,381 in overhead and general
                   and administrative costs. Also, the organization could not locate 12 percent of the
                   vendor invoices we requested, leading us to question $20,714 in travel and other
                   direct costs. Questioned costs of $5,117 also included certain “working dinner”
                   meal costs, because the organization could not provide documentation to show that
                   the costs were allocable, allowable, and reasonable, as required by federal regulations.
                   In addition, we questioned $5,023 of overhead costs that were associated with the
                   travel, meal, and other direct costs. We recommended that the organization adhere
                   to allowable indirect cost rates and that it exercise greater care in maintaining source
                   documentation to support the costs charged to the awards.

                         We also found that the organization did not use the proper negotiated technology
                   rate or the correct percentage of employees’ efforts to calculate computer-related
                   charges. To strengthen the organization’s compliance with federal regulations and
                   award conditions, we recommended that it show more diligence in the calculation of
                   computer-related charges reported to NSF.

                       The organization disagreed with the findings regarding overhead, general and
                   administrative costs, and questioned meal costs. We have forwarded our report to
                   NSF’s Division of Contracts, Policy, and Oversight for resolution.

                   Eastern For-Profit Corporation Claimed $54,478 in Unsupported
                   Costs

                       We conducted an audit of two contracts awarded to an eastern for-profit
                   corporation. The purpose of these awards was to provide data processing services
                   and database maintenance. Out of a total of $2.9 million in costs claimed by the


             18
                                                                  OIG Semiannual Report     March 2001


corporation, we questioned $54,478. These costs included $40,791 in direct labor
and related indirect costs and contract fees questioned due to missing payroll support,
$8,603 in other direct costs and related indirect and contract fee costs questioned due
to missing vendor invoices, and $5,084 in general and administrative costs that were
charged in excess of the corporation’s actual costs. Additionally, we found a material
internal control weakness in that the corporation incorrectly categorized certain
claimed costs it charged to the NSF award. This hampers NSF’s ability to monitor
the program’s fiscal progress.

      We recommended that the corporation maintain adequate accounting records
to support claimed costs and claim only the allowable general and administrative
costs to NSF. We also recommended that the corporation improve internal accounting
controls by classifying and recording costs in the correct expense categories.

      The corporation disagreed with the findings that it incorrectly classified costs in
relation to its approved budget and claimed general and administrative costs in excess
of actual costs. The corporation also indicated that it was unable to provide the
documentation to support the questioned payroll and vendor invoice costs. We have
forwarded this report to NSF’s Division of Contracts, Policy, and Oversight for
resolution.

A-133 Related Reviews
     OMB Circular A-133, issued pursuant to the Single Audit Act of 1984, as
amended, sets forth standards for obtaining consistency and uniformity among federal
agencies for the audit of state governments, educational institutions, and nonprofit
organizations that receive federal awards. Reports prepared by independent auditors
in accordance with this circular are referred to as A-133 audits.

      Our office receives and reviews the A-133 reports submitted to us by the Federal
Audit Clearinghouse or auditees. During this reporting period, we reviewed 114 A-
133 audit reports with NSF expenditures approximating $1.5 billion for fiscal years
1997, 1998, 1999, and 2000. Fifty-five reports involving questioned costs, internal
control weaknesses, and/or non-compliance with federal laws and regulations, were
sent to the Division of Contracts, Policy, and Oversight for audit resolution. For
example, the auditors identified $150,205 in questioned costs at eight institutions.
The questioned costs were related to travel, personnel compensation, indirect costs,
scholarship costs, and cost sharing. In addition 15 institutions had internal control
findings primarily related to unallowable costs. Another 15 institutions had issues
related to weaknesses in equipment and real property management. Other internal
control findings included financial reporting, cash management, procurement and
suspension and debarment concerns.




                                                                                            19
Audits & Reviews


                   Quality Control Review of an A-133 Audit of a Federally and
                   Privately Funded Foundation
                         At the request of the U.S. Department of State (State), we performed a quality
                   control review of the A-133 audit of a foundation funded by NSF, State, other federal
                   agencies, and private organizations for the year ending December 31, 1999. The
                   foundation was established under the Freedom Support Act to assist the Newly
                   Independent States (NIS) of the former Soviet Union to develop collaborative projects
                   between NIS and U.S. researchers. From September 18, 1995, through December
                   31, 1999, NSF provided to the foundation awards approximating $30.4 million. We
                   found that the audit generally met the audit requirements of OMB Circular A-133
                   and its related Compliance Supplement and the Government Audit Standards. We also
                   found that the independent auditors’ testing was sufficient, based on the assessment
                   of control risk, to support their opinion that the financial statements were free of
                   material misstatement and were presented fairly and in conformity with generally
                   accepted accounting principles. We made four recommendations to ensure that
                   required quality control reviews and project audits are performed, significant
                   accounting policies are properly identified, and the required Data Collection Form is
                   accurately completed. NSF management agreed to implement all of the
                   recommendations.

                   Resolution of Prior Audits
                        During this reporting period, ten audit reports with significant recommendations
                   have been resolved by NSF management. By reducing future or recovering past
                   payments to award recipients, these resolutions provided NSF with over $600,000 to
                   use in funding other award opportunities. Just as important as financial savings, the
                   audit resolution process also resulted in the agreement by some award recipients to
                   improve their internal controls for managing and administering federal awards in
                   compliance with NSF and federal regulations.

                   A Southern School District Must Repay NSF $343,362
                         In our September 2000 Semiannual Report (pages 6 and 7), we reported the
                   results of an audit of a southern school district that received a $10.1 million NSF
                   Urban Systemic Initiatives (USI) cooperative agreement. NSF decided to phase out this
                   cooperative agreement because the school district did not administer its USI award in
                   accordance with agreed upon project objectives. We questioned $1,963,957 of
                   $4,012,542 in promised cost sharing because we could not determine whether it was
                   reasonable, allocable to the award, or allowable under NSF and federal regulations.
                   In addition, the school district did not have documentation to show that it had met
                   NSF’s cost-sharing requirements for the award. We also questioned $888,957 of $7.8
                   million in direct costs claimed by the school district, because it was unable to support
                   $815,799 of various types of costs and claimed $73,158 of unreasonable, unallocable,
                   or unallowable costs.

             20
                                                                 OIG Semiannual Report     March 2001


      During the resolution of the audit, the school district provided NSF with
additional documents to show that the cost-sharing obligation had been met and
adequately supported. Accordingly, NSF allowed $1,963,957 of the questioned cost
sharing. In addition, the school district provided documentation and explanations to
support $535,220 of $888,957 in direct costs that had been questioned. As a result,
the school district is required to repay NSF $343,362 ($353,737 of sustained costs
less a credit of $10,375 for unbilled indirect costs).

NSF Recovers $169,596 from Western Educational R&D
Agency
      In our September 2000 Semiannual Report (page 13), we reported on our audit
of three awards made to a western educational research and development agency to
help teachers effectively provide science education to students. Of the $4.2 million
in claimed costs, we questioned $445,742 charged to one award because these costs
were determined to be unallowable and/or inadequately supported. We also made
recommendations for the agency to improve compliance and internal controls for
filing financial disclosure statements, reporting changes in project scope to NSF,
procuring goods and services, and reviewing the allowability of costs.

      After reviewing additional documentation provided by the agency, NSF
management sustained $169,596 of the amount questioned. The agency agreed to
adjust or offset unbilled NSF award costs for the sustained amount. For the compliance
and internal control issues, the agency provided NSF with completed financial
disclosure statements and written policies and procedures for procurement activities
and for the review of the allowability, reasonableness, and allocability of project
costs. NSF was satisfied that the agency would implement these procedures to comply
with federal regulations. In addition, NSF resolved with the agency that a change in
the project’s scope had not occurred and thus did not require the agency to report a
change.

Northeastern Company Required to Offset $71,595 Against
Future Costs
      In our September 2000 Semiannual (page 14), we reported on an audit of two
awards to a northeastern for-profit organization dedicated to mathematics education.
We found that the organization had miscalculated NSF-funded expenditures appearing
in quarterly financial reports sent to NSF. In addition, the organization had overbilled
for space rental and computer usage and claimed NSF grant funds as cost sharing. In
total, we questioned $121,095 in claimed costs and cost sharing. Also, regarding the
unexpended cash claimed as cost sharing, we recommended that the awardee
implement procedures to restrict the unexpended cash for future payment of specific
award cost-share expenditures.




                                                                                           21
Audits & Reviews


                        After reviewing our audit report and additional documentation submitted by
                   the auditee, NSF sustained $71,595 of the questioned costs by requiring the
                   organization to offset the costs against claimed costs, but did not insist on the additional
                   cost-sharing safeguards recommended, stating that the institution’s current policies
                   adequately addressed the problem.

                   NSF Used Reviews of Earthquake Centers to Adjust a Final
                   Award By $65,351
                         We previously reported on our reviews of two earthquake centers established
                   to conduct and coordinate earthquake engineering research in our September 2000
                   Semiannual Report (page 17). NSF administered the awards through cooperative
                   agreements with the two universities. Our review of the financial and administrative
                   systems at the two earthquake centers identified areas that could be strengthened
                   during the early stages of the centers’ operations. In both cases we found that
                   improvements were needed in the reports required to be sent annually to NSF under
                   the cooperative agreements. Specifically, we recommended that the centers work
                   with their respective university administrators to improve the reliability and
                   completeness of the reported data, and disclose or otherwise indicate the amount of
                   unspent obligations exceeding 25 percent of the award amount. In accordance with
                   our recommendations, the universities have taken remedial action, such as providing
                   expenditure and cost-sharing information to the center and verifying that the annual
                   report data is correct. Additionally, NSF has revised its reporting guidelines to require
                   all engineering research centers to report unspent obligations in excess of 25 percent
                   of the award amount.

                        At one of the centers, we also questioned $65,351 paid to consultants in excess
                   of the maximum federal reimbursement allowed. NSF management agreed that
                   these costs were unallowable and asked the university to adjust its unbilled NSF award
                   costs by the amount questioned.

                   Western University Foundation To Take Action to Improve
                   Control of Managing, Accounting, and Reporting Its Cost-
                   Sharing Obligations
                          On pages 9 and 10 of our September 2000 Semiannual Report, we reported the
                   results of an audit of a western university foundation (the foundation) that received
                   three awards related to the Federal Technology Reinvestment Project, a federal initiative
                   to assist in the development of dual-use technologies addressing both defense and
                   civilian needs. We reported that the foundation provided acceptable cost sharing to
                   meet the requirement on two of the awards, but did not provide sufficient cost sharing
                   for the third award. We therefore recommended that NSF require the foundation to
                   reimburse the $271,440 cost-sharing shortfall on the third award and improve its
                   overall control processes for valuing, supporting, and meeting its cost-sharing
                   obligations. Our audit also found that the foundation had not developed ten

             22
                                                                  OIG Semiannual Report      March 2001


multimedia-based training modules, a project for which it had received $200,000
through one of the awards. We recommended that NSF require the foundation to
demonstrate that it had developed the modules and make them available to the intended
industrial and academic communities, or return the $200,000 awarded for their
development.

      In response to our report, the foundation provided to NSF more documentary
support for the cost-sharing expenditures that we questioned, and it claimed additional
cost-sharing expenditures not previously provided to us during our audit. As a result,
NSF sustained $19,744 of the $271,440 cost-sharing shortfall. In addition, the
foundation stated it had taken immediate steps to improve its overall controls for
managing, accounting, and reporting cost-sharing obligations. These steps include
revising its policies for estimating the value of donated assets, developing a new cost-
sharing policy and a comprehensive accounting system to track cost-sharing
requirements and milestones, and scheduling staff training on compliance with federal
requirements. Further, in response to the audit report, the foundation stated that it
plans to produce ten updated multimedia-based training modules that could be
uploaded directly to a World Wide Web site.

Cost-Sharing Issues at a University Resolved by NSF
       We previously reported on our audit of a $9.3 million cooperative agreement
issued to a university in Puerto Rico in our September 2000 Semiannual Report (page
10). The university is one of six institutions that NSF funded under its Model
Institutions of Excellence program, a 10-year comprehensive institutional development
program. We determined that the university was at risk of not meeting $248,524, or
19 percent, of its $1.3 million required cost sharing. We identified two primary reasons.
First, the university mistakenly believed that it was only required to cost share $232,000
instead of $464,000 in the award’s third year. We confirmed with both the NSF
grants officer and the program officer that the university was required to cost share
$464,000 in the third year. Second, the university claimed $112,516 of unallowable
cost sharing. During the audit resolution process, NSF determined that it was the
university’s intent to cost share only $232,000 in the award’s third year and amended
the award to reflect a $232,000 cost-sharing requirement. In addition, NSF did not
believe that the university was at risk of not meeting its cost-sharing obligations,
although it disallowed $112,516 of claimed cost sharing identified in our audit.

    Also, the university agreed to implement our recommendations to address
weaknesses in its controls for ensuring compliance with NSF and federal regulations.

Midwestern Board of Education Must Improve Accounting
For Cost Sharing And Labor Costs And Repay NSF $2,355
     In our September 2000 Semiannual Report (page 7), we reported that a
midwestern board of education was at risk of not meeting its $10.1 million cost-
sharing obligation for an NSF award because it did not adequately document its cost

                                                                                             23
Audits & Reviews


                   sharing. Additionally, the audit found approximately $970,000 in questioned direct
                   costs, related primarily to inadequately supported salaries and fringe benefits. We
                   recommended that the board implement procedures to account for cost sharing
                   adequately, ensure that time and attendance records are maintained as the basis for
                   salary costs claimed under the award, and modify its accounting records and financial
                   report to NSF to reflect an adjustment for the questioned fringe benefits.
                          During the audit resolution process, NSF’s Cost Analysis and Audit Resolution
                   (CAAR) branch performed a detailed analysis of the cost sharing claimed for the
                   award during the last year and also determined that 30 percent of the costs claimed
                   were unrelated to the award. To address these concerns and the internal control
                   findings in the OIG audit report, CAAR required the board to take corrective action
                   and implement new grant administrative and accounting policies. Specifically, the
                   board issued new policies to account for cost sharing, including the pre-screening of
                   costs claimed for allowability. In addition, the board revised its accounting system to
                   accumulate all cost sharing related to the NSF award under the same accounting
                   code and to identify the source of the funding. The board also agreed to issue new
                   policies and procedures regarding the timekeeping system, which included revisions
                   to its employees’ timekeeping records to reflect an after-the-fact certification and to
                   show the percentage of effort worked under the award. The board’s actions to address
                   these significant accounting control weaknesses should ultimately prevent future claims
                   from being questioned.

                         Working with the institution, NSF was able to satisfy itself that corrective action
                   was implemented and, therefore, cost-sharing obligations were no longer an issue.
                   Also, the board was able to provide additional documentation to support the
                   questioned costs. After consulting with the OIG, NSF allowed all of the questioned
                   costs except for $2,355, which included $2,180 in unreasonable consultant costs and
                   $175 in unallowable material and supply costs. Similarly, it was able to demonstrate
                   that it had fulfilled its cost-sharing obligation.

                   Northwestern Foundation Must Repay $1,553 and
                   Strengthen Internal Controls
                        We reported on an audit of three awards made to a northwestern non-profit
                   educational foundation in our September 2000 Semiannual Report (page 13). We
                   identified questioned costs of $141,708 because the foundation spent funds budgeted
                   for participant support on other activities without the required approval of the NSF
                   program official. Additionally, it could not provide supporting documentation for
                   various costs. We also noted that the foundation fell short of meeting its cost-sharing
                   obligation by $40,970.

                         During the audit resolution process, the foundation produced documents to
                   support most of the questioned costs and all of the cost-sharing shortfall. As a
                   result, the foundation agreed to repay NSF $1,553 primarily for unsupported travel
                   costs. In addition, the foundation agreed to strengthen its internal controls over
                   documenting claimed costs, securing approvals for certain transactions, and reconciling
                   its general ledgers to federal cash reports.
             24
                                                                              Investigations

W
              e investigate allegations of wrongdoing involving
              institutions, organizations or individuals that receive funds
              from, submit proposals to, review proposals for, conduct
business with, or work for NSF. If we determine that an allegation
has substance, we assess the seriousness of the allegation and either
recommend administrative action to the NSF’s adjudicator, the
Deputy Director, or refer our investigations to the Department of
Justice or other prosecutorial authorities for criminal prosecution or               HIGHLIGHTS
civil litigation.

     Information for OIG investigations comes from many sources.               Administrative
NSF officials, grant recipients, private citizens, and staff from              Investigations               26
governmental agencies often refer tips or other information. Another
source is our Hotline, a toll free number that provides anonymity                  Findingsbythe
and direct access to OIG staff. OIG staff may also be contacted by                 Deputy Director          26
e-mail at oig@nsf.gov to notify our office of any wrongdoing related
to NSF processes, funds, or projects.                                              MisconductInvestigations
                                                                                   Forwarded to the
                                                                                   Deputy Director          26

                                                                                   The Perils of Plagiarism 28

                                                                               Civil and Criminal
                                                                               Investigations               31

                                                                                   Professor Pleads Guilty
                                                                                   to Embezzlement         31

                                                                                   Employee Failed to
                                                                                   Disclose Collaborative
                                                                                   Relationship             33

                                                                               Summary of Case
                                                                               ActivityforthisPeriod        34



                                  OIG Semiannual Report • March 2001          25
Investigations


                 Administrative Investigations
                 Findings by the Deputy Director

                 Fabrication of Research Data is Misconduct in Science

                      In our March 2000 Semiannual Report (page 19), we described the case of a
                 chemist at a Delaware university who admitted to fabricating data under an NSF
                 award. The chemist adjusted the controls on an analytical device so that it generated
                 an apparent signal even though no bona fide signal was present. Consistent with our
                 recommendations, NSF’s Deputy Director concluded the chemist committed
                 misconduct in science and debarred him for 1 year.

                 NSF Concludes Principal Investigator Committed Misconduct in
                 Science

                       In our September 2000 Semiannual Report (pages 24-25), we discussed the case
                 of an engineer who used a model published by other scientists without appropriate
                 citation as the basis for two proposals submitted to NSF under the Small Business
                 Innovation Research (SBIR) program. In addition, the engineer’s proposals contained
                 text and a figure almost identical to text and a figure in the scientists’ published paper.
                 We determined the engineer used the published model and copied text and a figure
                 into his NSF proposals, as well as in proposals submitted to other agencies. Consistent
                 with our recommendation, NSF’s Deputy Director sent the engineer a letter of
                 reprimand stating that he committed misconduct in science by plagiarizing material
                 from a published paper without attribution and without the authors’ permission. The
                 letter of reprimand also noted the engineer misrepresented that the model was first
                 developed by his company, rather than by the original authors.

                 Misconduct Investigations Forwarded to the Deputy
                 Director

                 Doctoral Candidate Falsified Data in Thesis

                      We received notification from a California university that it was investigating an
                 allegation of misconduct involving the manipulation of experimental data by a
                 chemistry graduate student working under an NSF award. The allegation originated
                 when the graduate student voluntarily disclosed he removed outlying data points
                 from the data graphs, created new data files, and altered an internal computer clock
                 to obscure his manipulation of the data files. We concluded the allegation was
                 substantive and deferred investigation to the institution. The graduate student
                 cooperated fully with the institution’s investigation committee which concluded the
                 student was guilty of scientific misconduct. The student was formally reprimanded
                 and required to revise and resubmit his doctoral dissertation to more accurately describe


           26
                                                                  OIG Semiannual Report     March 2001


how he had presented the data. The institution also delayed awarding the student’s
doctoral degree for one year.

      We reviewed the committee’s report and the actions of the institution and
determined the investigation report was fair, accurate, and thorough, obviating the
need for an independent OIG investigation. Based on the committee’s report, we
concluded that the graduate student committed misconduct in science when he
intentionally manipulated his experimental data to enhance the graphical presentations.
We recommended that NSF send a letter of reprimand to the graduate student
informing him he has been found to have committed misconduct in science.

Plagiarized Material in a Biological Science Proposal

     We received an allegation that an assistant professor of biology at an institution
in Washington plagiarized material from another scientist’s NSF proposal into his
portion of a collaborative NSF proposal, without attribution or distinction. We asked
the assistant professor for an explanation of why the text in his proposal was identical
or substantially similar to material in the source proposal. In response, the assistant
professor stated that he had permission from the author, who was the assistant
professor’s former Ph.D. advisor, to “recycle” some of the material from the source
proposal. We wrote to the author and asked for his recollection of the subject’s
interaction with the source proposal. He stated that he did not provide the subject
with a copy of the source proposal or any information contained therein. Based on
the subject’s statements and the information supplied by the subject’s former advisor,
we concluded the allegation of plagiarism was substantive and deferred further
investigation to the assistant professor’s institution.

     The institution’s investigating committee identified text plagiarized from the
source proposal. The institution concluded that the assistant professor committed
misconduct in science and issued a letter of reprimand. In addition, the institution
required certifications for a period of three years that any other proposals for external
funding did not contain plagiarized materials, and it directed the assistant professor
to instruct his students on the proper conduct of scientific research, with special
attention to avoiding plagiarism.

      We reviewed the institution’s report and determined the institution’s investigation
was a fair, accurate, and thorough evaluation of the facts relevant to the allegation.
Accordingly, we determined the committee’s report could be used in lieu of our own
independent investigation. Based on this report, we concluded the assistant professor
acted with at least gross negligence in copying verbatim text from the source proposal
into his working notes and subsequently copying verbatim text from those notes into
his collaborative proposal without proper attribution of the original sources. We
recommended that NSF find the assistant professor committed misconduct in science,
send him a letter of reprimand, and require for a period of two years that he submit
certifications and assurances to OIG that any documents he submits to NSF contain
no plagiarized material.


                                                                                            27
Investigations


                 Significant Administrative Case Activity
                 The Perils of Plagiarism

                 Allegations of Inadequate Citations

                       We receive more allegations of plagiarism (verbatim plagiarism as well as
                 intellectual theft) than any other type. Typically, intellectual theft, also known as
                 plagiarism of ideas, cases contain little verbatim copying of material. Instead,
                 complainants believe the subjects have inappropriately taken credit for a novel idea or
                 technique without properly citing the original research. As examples, we discuss three
                 cases we closed this period that involved alleged intellectual theft.

                      In one case, a reviewer believed the PI and the co-author of an NSF proposal
                 presented ideas that were developed by another scientist as their own and failed to
                 provide proper attribution. The reviewer provided a reference to the scientist’s primary
                 paper in which he believed the ideas for the research had been first described.

                      We consulted a researcher with expertise in the field, who thought the idea for
                 the proposed research came from the scientist’s primary paper, but noted the PI
                 referenced one of the scientist’s older papers in his proposal. We agreed with the
                 researcher’s view that the citation to the older paper did not make clear the extent to
                 which the PI used the scientist’s ideas and methodology in the proposal.

                       The PI acknowledged that he and the co-author used the scientist’s research as
                 the starting point of their methodology, but he thought the scientist’s work had been
                 sufficiently cited. Although the PI told us he and his co-author could not have used
                 the scientist’s primary paper as their source because it was unpublished at the time of
                 submission of the proposal, the scientist told us he recalled sending a preprint of his
                 primary paper to the PI. The PI failed to satisfactorily explain the relationship between
                 the ideas in his proposal and the scientist’s proposal. It appeared he may have relied
                 on a preprint of the scientist’s primary paper before submitting his proposal. Therefore,
                 we deferred further investigation to the PI’s institution.

                       The institution’s inquiry committee concluded there was insufficient substance
                 to proceed with an investigation. The committee believed it was unclear which preprints
                 the scientist sent the PI. It concluded that the reference to the older paper was an
                 adequate citation to the scientist’s research. However, it also felt that the PI’s use of
                 the scientist’s ideas and text should have been more carefully acknowledged and that
                 the PI’s failure to do so was inappropriate scholarly conduct, although not misconduct
                 in science. After reviewing the University’s report and supplemental material from
                 the PI, we agreed there was insufficient substance to proceed with further investigation.




           28
                                                                  OIG Semiannual Report     March 2001


      In another case, a complainant wrote us to point out that a recent paper in a
scientific journal, the authors of which acknowledged NSF support, described a
phenomenon that was already described in his previously published, NSF-funded
research. The complainant thought the authors’ experiments were essentially identical
to his. Even though the authors cited his papers, he thought the reference to his
papers was not as forthright and significant as it should have been to describe the
same research.

      We asked an engineer with expertise in the area to evaluate the significance of
the overlap and whether the authors’ reference to the complainant’s papers was
reflective of its relevance to the complainant’s research. The engineer agreed the two
research projects were similar. However, the engineer thought the authors’ paper
took a more rigorous approach to the topic, and the reference to the complainant’s
papers was part of a serious comment indicating differences in results, and not one
made in passing. The engineer thought it was now up to the engineering community
to evaluate the merits of the two theories. We agreed that this repetition of experiments
was part of the research process and did not represent intellectual theft.

     In a third case, a reviewer alleged that the PI and co-PI on an NSF proposal
plagiarized material from an unpublished manuscript she co-authored with two
collaborators and did not appropriately cite her role in the development of a scientific
apparatus. The reviewer also alleged that her request to use the apparatus in the
collaborators’ laboratories was refused, even though NSF had supported its
development.

      Although the proposal contained no citations to the reviewer’s work, it stated
that the apparatus was developed in one of the collaborator’s laboratories, and it
referenced a personal communication with one of the authors of the unpublished
manuscript (and one of the reviewer’s collaborators). Therefore, although the reviewer
herself was not cited directly, there was a citation to the material from the unpublished
manuscript. Accordingly, we concluded the PI had not plagiarized material in the
proposal or misappropriated credit for himself or his co-PI related to the development
of the apparatus. We concluded NSF had no jurisdiction over the alleged refusal of
the collaborators to permit the reviewer to use the apparatus, because the collaborators
did not receive direct NSF support for development of the apparatus.

Allegations of Verbatim Copying without Credit

      A PI was alleged to have plagiarized text, equations, tables, and figures from two
published papers in two NSF proposals submitted to the Small Business Innovation
Research (SBIR) program. The PI explained that one of the authors of both papers
was formerly an employee of the company and was currently a consultant. The PI
also stated that the author was explicitly referred to in the proposals as a participant
in the proposed projects, had participated in the preparation of the proposals under
the PI’s supervision, and had given the PI permission to use the published materials.
When a letter from the author confirmed the information provided by the PI, we


                                                                                            29
Investigations


                 concluded that the PI’s actions did not deviate from accepted practices. It is notable
                 that unlike other NSF proposals, SBIR proposals do not provide for Co-Principal
                 Investigators, a role that likely would have been assigned to the author, if this option
                 had been available.

                      In the course of this inquiry, we asked the PI if he submitted an identical or
                 similar version of either of these proposals to any other federal agency. The PI
                 provided a copy of a National Aeronautics and Space Administration (NASA) proposal
                 that was essentially identical to one of the NSF proposals in this inquiry. The NASA
                 proposal was submitted one month after the PI’s submission of the NSF proposal.
                 The PI failed to indicate in the NASA proposal, as he is required to, that he submitted
                 the same proposal to NSF. We referred this information to the NASA OIG.

                       Citations to and acknowledgement of original research are essential to researchers
                 and, therefore, we take perceived and real failures of acknowledgement seriously. We
                 continue to believe careful citation to the literature would prevent many minor
                 allegations of verbatim plagiarism or theft of ideas from arising.

                 Allegations of Misconduct in Science
                       A post-doctoral fellow alleged that an NSF-funded PI and his collaborator made
                 false claims in support of his NSF award, violated animal regulations, misappropriated
                 dissertation research results, refused to release research results, and retaliated against
                 him for reporting these complaints to the PI’s institution. We confirmed with the PI’s
                 institution that it was aware of these allegations, and we formally deferred inquiry of
                 this case to the subject’s institution.

                       The institution’s inquiry committee did not find any substance to the allegations
                 of falsified claims, violation of animal regulations, refusal to release research results,
                 intellectual theft, or retaliation. We reviewed the report of the inquiry committee and
                 concluded the inquiry was a fair, accurate, and thorough evaluation of the evidence.
                 In the absence of substantive allegations of wrongdoing, we closed the inquiry.

                 Conflicts of Interests at an NSF-Funded Engineering
                 Research Center
                      In our September 2000 Semiannual Report (page 35), we discussed our limited
                 review of conflict of interests (COI) issues at select NSF-funded Engineering Research
                 Centers (ERCs). NSF requires all grantees with 50 or more employees to have in
                 place financial COI policies to monitor financial interests of NSF-supported PIs.
                 ERCs’ policies are of particular importance because ERCs are expected to engage in
                 substantial collaborations with private industry.

                      We received an allegation that a former PI at an ERC and the president of a
                 small business, who were jointly supervising a graduate student, used the student’s
                 thesis work to promote the interests of the small business they owned jointly. We

           30
                                                                 OIG Semiannual Report     March 2001


determined that the allegations of intellectual theft had no substance because the
former PI and small business owner had worked on the specific research prior to the
graduate student’s involvement. After evaluating the awardee’s COI efforts in this
case, we suggested the awardee more carefully review relationships, such as those
described in this case, in evaluating potential COIs.



Civil and Criminal Investigations
Cases for Criminal Referral

Community College Falsely Certifies Having a COI Policy

      On July 21, 2000, we received an anonymous letter alleging that the spouse of a
PI at a small community college in Maryland had been paid consulting fees from the
PI’s grant.

      We requested a copy of the community college’s current COI policy, and were
told no policy existed. Since 1995, NSF has required institutions with 50 or more
employees that apply for NSF grants to certify they have a written and enforced COI
policy. In this case, the college’s proposal included the required certification, and it
received a grant of approximately $500,000. Since the college stated on the grant
application that it had a COI policy when in fact it did not, the application included
a false certification, in violation of 18 U.S.C. § 1001. As required by the IG Act, we
referred this matter to the Department of Justice, which declined to prosecute.

     When we reviewed the grant records at the college, we found no evidence of
impropriety regarding the participation of the PI’s spouse in the grant activities. As
part of the resolution of this matter, the college has implemented an interim COI
policy to permit effective management of NSF awards and is in the process of
approving a final COI policy.

Professor Pleads Guilty to Embezzlement

     In our September 1999 Semiannual Report (page 30), we reported a case in
which a professor at a Wyoming university, submitted false travel receipts involving
an NSF grant. The investigation revealed that the professor attended four conferences
for which he received payment from the host organizations, and for which he also
charged the trip expenses to his NSF grant.

     We referred this case to the United States Attorney’s Office, which accepted the
case for criminal prosecution. On March 19, 2001, the professor pled guilty to one
misdemeanor count in violation of 18 U.S.C. § 641, embezzlement and theft.
Subsequently, the professor reimbursed the university $1255.70 for the duplicate
payments, and the university returned this money to the government.


                                                                                           31
Investigations


                 Former Director of University Research Center Convicted for
                 Misappropriation

                      In 1998, a university in Virginia received an anonymous tip that a former director
                 of a university’s material research center misappropriated funds. The institution
                 conducted an internal audit and detected potential misuse of federal and state funds
                 for unauthorized travel and other questioned expenses by the former director.

                       The state police conducted an investigation regarding the misappropriation of
                 state funds. As a result, the director was charged with five counts of Misappropriation
                 of State Funds and three counts of Obtaining Money under False Pretenses. Our
                 office provided information and advice to the state police and state attorney general’s
                 office during the investigation.

                      The state attorney general’s office prosecuted the case and obtained a conviction
                 on two counts of felony fraud. The court ordered the former director to pay restitution,
                 including costs of $696, and sentenced him to three years incarceration for each
                 felony count, to be served concurrently. The sentence was suspended with one year
                 of unsupervised probation. The former director paid restitution for the state and
                 federal funds to the university.

                 President and Vice President of International Database Systems
                 Plead Guilty to Fraud

                       The Defense Criminal Investigative Service (DCIS), in conjunction with our
                 office, investigated an allegation involving fraud. The investigation revealed that the
                 President and Vice President of International Database Systems (IDS) were involved
                 in altering resumes of IDS staff in order to appear more competitive on grant and
                 contract proposals. IDS submitted a proposal to NSF utilizing the fraudulent resumes,
                 but did not receive an NSF grant.

                       We referred this case to the United States Attorney’s Office in the Eastern District
                 of Virginia, which accepted the case for criminal prosecution. The president pled
                 guilty to three counts and the vice president pled guilty to two counts of Major Fraud
                 against the United States, in violation of Title 18 U.S.C. § 1031. On January 26, 2001,
                 in the United States District Court for the Eastern District of Virginia, the president
                 was sentenced to five months with the United States Bureau of Prisons and fined
                 $70,769. The vice president was sentenced to eight months in community confinement
                 and fined $36,326. DCIS is proceeding with administrative action against the
                 defendants.




           32
                                                                    OIG Semiannual Report     March 2001


Cases Resolved Administratively

NSF Employee Misused Government Travel VISA Card
      We received information alleging that an NSF employee used her government
travel VISA card for personal expenditures unrelated to official government business.
We interviewed the employee, who admitted she used her government travel VISA
card to withdraw $5,000 because of personal financial hardships and said she intended
to reimburse the account.

     The case was referred to the employee’s division for administrative action. The
employee was issued a letter of reprimand and her government travel VISA card was
confiscated and destroyed.


Employee’s Judgment Questioned in Failing to Disclose
Collaborative Relationship

      An NSF program officer approved Continuing Grant Increments (CGIs) on
two awards for which he had collaborative relationships with the PI as a co-author on
publications. The progress reports for each award, which the program officer signed
to designate his approval of the CGIs, listed him as a collaborator. However, the
program officer failed to list either co-authored paper or the co-authors in his division’s
required yearly COI disclosure statement. When asked about these matters, the
program officer explained that he began these collaborations a few months prior to
his approval of the CGIs. He stated that he gained no financial benefit from either
award. He said he had not thought about the COI issues and apologized for his
carelessness.

     Under federal criminal law (18 U.S.C. § 208), unless a waiver is obtained, a federal
employee may not participate personally and substantially in a decision in which he
or she has a personal financial interest. We reviewed the grant financial records and
determined that because the program manager did not receive any financial benefit
from the awards, his actions did not constitute a violation of this statute.

      However, the program manager did ignore an NSF supplemental COI regulation
that requires assessment of a potential conflict when an employee participates in any
matter involving a person with whom the employee has had a collaborative relationship
within 48 months. Because the federal government no longer employed the program
manager, NSF’s recourse was limited. We discussed this matter with NSF’s designated
agency ethics official (DAEO) who reviewed this matter independently. We shared
with the DAEO a copy of a letter to the program manager in which we informed the
program manager that we closed this case and suggested he take COI policies seriously
wherever he worked in the future. The DAEO was satisfied with our office’s resolution.




                                                                                              33
Investigations


                 Summary of Case Activity for this Period
                       We receive allegations of wrongdoing from a variety of sources, including NSF
                 staff, merit reviewers, researchers, graduate students, and institution officials. We
                                                review each allegation we receive for substance,
                                                including those we receive anonymously, and classify
                                                them as either Preliminary, Administrative (which
                                                includes research misconduct allegations), or Civil/
                                                Criminal cases. Preliminary cases are generally closed
                                                within two months, referred to management for
                                                resolution, or, if supported by sufficient evidence,
                                                converted into Administrative or Civil/Criminal cases.

                                                     We received 50 additional allegations in this
 Cases Received in this Semiannual Period       semiannual period. Of these, 33 were initially classified
                                                as Preliminary, 13 as Administrative, and 4 as Civil/
                                                Criminal cases. We closed 30 Preliminary cases after
                 determining there was insufficient evidence to warrant opening an Administrative or
                 Civil/Criminal case. We closed 4
                 Preliminary cases that were
                 converted into Administrative (1)
                 or Civil/Criminal (3) cases.

                 Administrative Cases

                      The majority of our
                 administrative cases involve
                 allegations of research
                 misconduct. Under our research            Cases Closed in this Semiannual Period
                 misconduct regulation, such cases
                 can involve three steps: inquiry,
                 investigation, and adjudication. An inquiry consists of initial information-gathering
                 and fact-finding to determine if the allegations are substantive. If we find that an
                 allegation lacks substance, we close the case. If we determine that an allegation has
                 substance, we initiate an investigation. If, after investigation, we believe research
                 misconduct has occurred, we send a recommendation to NSF’s Deputy Director for
                 adjudication.

                      We closed 17 administrative cases at the inquiry stage this period. These cases
                 involved subjects at public colleges and universities (10), private universities (4), private
                 industry (2), and government agencies (1). The primary allegations in these cases




           34
                                                                   OIG Semiannual Report      March 2001


included intellectual theft (6), false statements or other misrepresentations (4), verbatim
plagiarism (3), administrative issues (2), abuse of colleagues (1), and retaliation (1).
We contacted subjects in 8 of these cases and we requested expert opinions in 2
cases.

     We closed 3 administrative cases after investigation. NSF’s Deputy Director
made findings of research misconduct in two of these cases and took action consistent
with our recommendations (see page 26). We closed the other administrative
investigation and converted it to a criminal investigation.

     In other administrative case actions this period,
we deferred 1 inquiry to a grantee and forwarded results
of 2 investigations to NSF’s Deputy Director for
adjudication.

Civil/Criminal Cases

     We closed 8 civil/criminal cases that involved
possible violations of laws on false statements (3),
embezzlement or theft (3), or fraud (2). Three of these      Cases Processed in this Semiannual Period
cases resulted in convictions. In one, a federal court
convicted two subjects for major fraud. In another, a federal court convicted one
subject of a misdemeanor count of embezzlement. In the third, a state court convicted
a subject for two counts related to embezzlement and fraud.




                                                                                              35
                                                         Outreach Activities

O
           ur Outreach program is designed to serve the needs of
           NSF and the communities it supports. We engage NSF
           grantees and employees in discussions and present
information regarding our office, NSF, award compliance and
integrity issues, misconduct in science, and the new Federal research
misconduct policy at professional society meetings, conferences,
annual meetings, poster sessions, university briefings, and NSF
training sessions. We strive to reach all geographic communities
in order to obtain feedback from the variety of communities we
serve and to ensure equal access to information.



OIG Open House
      As part of our ongoing efforts to reach out to the Foundation,
we hosted an open house for NSF staff, management and National
Science Board members on October 10, 2000. This event gave us
another opportunity to describe the office, its organization, and its
mission. In her opening remarks, the Inspector General described              HIGHLIGHTS
some recent results of audits and investigations, and ways that our
office has been able to assist management. This event also coincided
with the unveiling of our new webpage, which provides useful              OIG Assists Chinese
information regarding our functions and staff. We were pleased to         ScienceAgency          38
have the Director of NSF, Dr. Rita R. Colwell, cut the virtual ribbon
and take our webpage “live.” We then provided a virtual tour of our
office through a demonstration of the webpage’s features.                 OSTP Research
                                                                          MisconductPolicy       39
     While our offices are always open to NSF staff, on this day we
provided a unique look into our office. OIG staff prepared special        Integrity of Awards’
displays of audit, investigation, and outreach efforts, and were on-      Systems and the
hand to answer any questions. In anticipation of an upcoming
                                                                          AwardsProcess          40
conference on research integrity, we displayed drafts of posters on
Outreach and Duplicate Publications to be presented during the
conference and were very pleased with the excellent feedback we           Research Ethics and
received. We are very excited over the success of the open house.         Allegations of
We not only had the opportunity to interact with staff from all across    MisconductinScience    41
the Foundation, but also provided useful information in a fun
environment. We look forward to hosting similar events in the future.


                                OIG Semiannual Report • March 2001       37
Outreach Activities


                        OIG Assists Chinese Science Agency
                             The National Natural Science Foundation of China (NSFC) invited the Inspector
                        General (IG) to assist it in developing policies and procedures for undertaking financial
                        and performance audits and investigations of allegations of misconduct in science.
                        Founded in 1986 with the approval of the State Council of China, the NSFC awards
                        grants to principal investigators at various research institutions throughout China.
                                                The NSFC faces oversight challenges very similar to NSF’s,
                                                although the operating environment is quite different.

                                                    The NSFC supports basic research in science and
                                               technology. It holds competitions to identify the best ideas for
                                               research grants, using review panels of scientists as evaluators.
                                               The NSFC is establishing a basis for expanded international
                                               cooperation and participation in global scientific projects. As
                                               of 2000, NSFC had 52 collaborative agreements and memoranda
                                               of understanding with science funding organizations and
 The NSF Inspector General, Associate IG for   research institutions in 36 countries and regions throughout the
 Audit, and Associate IG for Investigations    world.
 with Chen Jiaer, President of the National
 Natural Science Foundation of China, and
 members of its Oversight Committee in
                                                     NSFC recently established an Inspection Committee of
 November 2000.                                distinguished Chinese scientists to oversee improvement in its
                                               auditing and investigative capabilities. The efforts are directed
                                               at improving internal standards and understanding better how
                        research accountability is achieved in science and engineering. In this context, the
                        NSF IG developed a strategy to provide technical assistance to the Inspection
                        Committee. The IG, Associate IG for Audit, and the Associate IG for Investigations
                        traveled to Beijing in November for a week of seminars, workshops, and discussions.
                        Over 100 research scientists and engineers attended the general sessions. NSFC staff
                        focused on learning specific audit standards and investigative practices.

                              The NSFC and its Inspection
                        Committee has asked for continuing
                        assistance. The NSF OIG plans to host
                        an NSFC intern in 2002 to study financial
                        auditing. Further exchange of information
                        is planned on ethics in research, including
                        issues related to technology transfer and
                        conflicts of interests. We are exploring
                        various ways to accomplish this exchange
                        over the next several months. It is believed
                        that these topics will gain importance as
                        international collaborations grow in number and available funding grows in size.




                 38
                                                                   OIG Semiannual Report      March 2001


                                            The continuing relationship with the
                                      NSFC will advance understanding of the
                                      cultural and historic context in which our
                                      international partners conduct research
                                      and provide insight into U.S. expectations
                                      and standards with respect to basic
                                      research accountability. The value of the
                                      relationship will be realized over the long-
                                      term as Chinese scientists become more
                                      engaged in collaborative research projects.
The NSF IG wishes to thank the Department of State IG for the assistance given in
this endeavor.



OSTP Research Misconduct Policy
      In December 2000, the Office of Science and Technology Policy (OSTP)
published the final version of the new Federal Policy on Research Misconduct in the
Federal Register (65 FR 76260, Dec. 6, 2000). The Policy, developed by the National
Science and Technology Council, requires each federal agency that sponsors research
to establish policies and procedures to respond to allegations of research misconduct
in their intramural and extramural research programs. The OSTP interagency Research
Misconduct Policy Implementation Group meets regularly to facilitate implementation
of the Policy. A subcommittee of this Group, with membership from the Office of
Research Integrity (ORI), NSF management, the Veterans Administration, the
Department of Agriculture, the National Air and Space Administration, and our
office, organized an OSTP-hosted Research Misconduct Policy Implementation
Workshop in February 2001. The workshop, attended by approximately 80
representatives from 25 agencies and Offices of Inspectors General, provided an
opportunity for agency officials to discuss the requirements of the Policy, learn from
the experience of agencies already active in investigating allegations of research
misconduct, and address issues they may confront in implementing the Policy. OIG
staff presented information on techniques for handling civil/criminal and
administrative cases, and on educational efforts to prevent misconduct. The IG briefed
attendees on the efforts of the President’s Council on Integrity and Efficiency (PCIE)
and the Executive Council on Integrity and Efficiency (ECIE) Misconduct in Research
Working Group (MIRWG), and its efforts to work with agencies in developing
investigative processes. NSF staff made presentations on implementation of the
policy and the appropriateness of administrative actions.

     Also in this period, the MIRWG , which is chaired by the NSF IG, drafted a
supplement for the Quality Standards for Investigations to address the process for handling
research misconduct allegations. The draft supplement was circulated to all working
group members and modified based on these comments. The supplement is now




                                                                                              39
Outreach Activities


                      available on the IGNET for OIGs and agencies to use as guidance. The MIRWG
                      continued discussions on training and mechanisms for assisting agency-led
                      investigations.

                            We also organized a panel of NSF and other government agency representatives
                      for the Society for Research Administrators’ annual meeting in St. Louis. The panel
                      discussed implementation of the Policy and features of quality investigations. As a
                      member of a panel discussing compliance from a federal perspective, the IG
                      emphasized issues of compliance for administrative, financial, and research
                      management staff, including conflicts of interests, lobbying, patent disclosure, human
                      subjects, animal welfare, and cost sharing. With representatives from OSTP and
                      ORI, OIG staff discussed the Policy at the National Consortium of University
                      Research Administrators’ (NCURA) annual meeting in Washington DC in November
                      2000. We also described the new OSTP policy and our approaches to investigations
                      at the initial meeting of the Institute of Medicine’s Committee to Assess Integrity in
                      Research Environments. We have offered the committee access to misconduct case
                      information to assist its efforts.



                      Integrity of Awards’ Systems and the Awards
                      Process
                            Recently, we have encountered increased interest in discussion of research
                      management issues and potential pitfalls, particularly regarding human subjects review,
                      Institutional Review Boards, animal welfare, radiation safety, biosafety, collection
                      permits, and environmental permits. In the areas of administrative and financial
                      management, we have had increased discussions regarding change or absence of a
                      principal investigator, filing of progress and final reports, conflicts of interests,
                      lobbying, patent disclosure, training requirements, systems management as described
                      by OMB, financial circulars, contracts and subcontracts, and cost sharing. In particular,
                      audiences have requested clarification regarding principal investigator and awardee
                      responsibilities.

                           For example, at the winter meeting of the University Consortium for Geographic
                      Information Science, we provided a short program on NSF policies about contacting
                      members of Congress, lobbying disclosure and certification requirements, and the
                      laws prohibiting the use of federal funds for lobbying.

                            At a site visit to NSF by National Council of University Research Administrators
                      (NCURA) member representatives, we presented information relating to audit focus,
                      risk-based auditing, and concerns regarding cost sharing. We discussed these issues
                      in conjunction with representatives from the Department of Health and Human
                      Services and the Defense Contract Audit Agency to provide NCURA members with
                      insight into how different agencies approach the same issues.



                40
                                                                 OIG Semiannual Report    March 2001


      At a meeting of the National Association of College and University Attorneys,
we focused on compliance issues that can result in substantial financial liability when
breached by universities, such as program income, cost sharing, conflicts of interests,
and cost overruns on large construction projects. We also discussed briefly patent
disclosure issues and the new federal research misconduct policy.



Research Ethics and Allegations of
Misconduct in Science
     We continued to conduct seminars for students, administrators, and principal
investigators on ethical dilemmas, on Federal and NSF policies on handling allegations
of misconduct in science, and on issues related to assuring the integrity of NSF
awards. In our discussions, students’ questions often focused on understanding the
significance of intent in assessing ethical lapses and actions taken by NSF. At one
university, we met with administrators and discussed the university’s misconduct policy
and recent developments in federal policies and laws that relate to misconduct. Our
seminars attract students, principal investigators, faculty, and representatives from
general counsel offices, as well as “research standards” and “compliance” officers,
who are university officials responsible for administrative and ethical compliance.
During this semiannual period, we met with students, faculty, administrators, and
investigators at universities in Alabama, Delaware, Texas, Wisconsin, and Washington,
DC.

     At NSF’s Regional Grants Conference at Purdue University, OIG staff and
NSF representatives addressed NSF award administration issues, NSF’s definition of
misconduct in science, and our office’s procedures for handling allegations of
misconduct. We also discussed research ethics and compliance issues with members
of The Grant Resource Center at a meeting hosted by the American Association of
State Colleges and Universities and at an NSF site visit held during the meeting.
Attendees were particularly interested in awardee responsibilities regarding duplicate
proposal submissions and the accuracy of current and pending support statements.

     At a forum hosted by Sigma Xi, The Scientific Honor Society, we joined a panel
discussing the new federal policy on research misconduct, addressed ethical dilemmas,
and discussed practical solutions for research managers faced with ethical dilemmas.

      We presented a workshop on Ethical Dilemmas in Research at the American
Indian Higher Education Consortium 20th Annual Conference in Cloquet, Minnesota.
This conference is hosted by tribal and community colleges, whose students are
approximately 85 percent Native American. We explained how interested students
and principal investigators could obtain funding from NSF through awards and
fellowships, what constitutes research misconduct under NSF rules, and the procedures
our office follows in investigating allegations of wrongdoing. We also moderated a
role-playing exercise in which workshop participants discussed authorship rights.


                                                                                          41
Outreach Activities


                           We presented poster sessions reviewing the practice of self-plagiarism, or printing
                      the same article in multiple publications, at the Conference on Research Integrity
                      hosted by the Office of Research Integrity in November 2000. We also presented
                      our poster on self-plagiarism and discussed potential problems in receiving funding
                      under NSF’s Small Business Innovation Research program at the Design,
                      Manufacturing and Industrial Innovation Grantees Conference in Tampa, Florida.
                      This conference is attended primarily by awardees who receive SBIR funding through
                      NSF’s Engineering Directorate. We also discussed general compliance issues at a
                      meeting of a group of awardees funded by NSF’s Education and Human Resources
                      Directorate.

                            As part of our ongoing efforts to reach appropriate audiences, we are in
                      discussions with representatives from the Council on Government Relations regarding
                      our joint interests in effective compliance system programs that monitor the proposal
                      submission process.



                      Feedback After Deferral
                            We also continue to seek feedback from institutions to improve the assistance
                      we provide in the deferral of misconduct cases. We find that meeting with a university
                      after a deferral of investigation is useful for learning about problems that were
                      encountered, which enables us to address those issues preemptively.



                      Conflict of Interests for NSF Employees
                           We assisted in providing information to NSF employees regarding conflicts of
                      interests at NSF’s mandatory Conflict of Interests (COI) briefings and at program
                      management seminars. In the COI briefings, we encourage employees to use NSF
                      procedures to clear all potential conflicts.

                            At program management seminars, we highlight issues with case examples in
                      which we have found a COI. We also explain our office’s role in investigating allegations
                      of fraud, waste, abuse, and misconduct in science. We encourage NSF employees to
                      refer allegations of wrongdoing regarding NSF programs to us and to contact us
                      regarding any concerns of their own. We have begun to see the results of engaging
                      in these discussions as recently opened cases involved information brought to our
                      attention after our presentations to NSF employees.




                42
                                                            Statistical Data
Audit Reports Issued
with Recommendations for Better use of Funds                      44


Audit Reports Issued with Questioned Costs                        45


Additional Performance Information                                46


Audit Reports Involving Cost-Sharing Shortfalls                   47


Status of Recommendations that Involve Internal NSF
Management Operations                                             48


List of Reports                                                   49


Audit Reports with
Outstanding Management Decisions                                  52


Investigations Case Activity and Case Statistics                  53


Administrative Statistics                                         54




                             OIG Semiannual Report • March 2001   43
Statistical Data


                   Audit Reports Issued with Recommendations
                   for Better use of Funds

                                                                                      Dollar Value


                    A. For which no management decision has been made by the                    0
                       commencement of the reporting period


                    B. Recommendations that were issued during the reporting period             0


                    C. Adjustments related to prior recommendations                             0


                    Subtotal of A+B+C                                                           0


                    D. For which a management decision was made during the                      0
                       reporting period

                       i) dollar value of management decisions that were consistent             0
                          with OIG recommendations

                       ii) dollar value of recommendations that were not agreed to              0
                           by management


                    E. For which no management decision had been made by the end                0
                       of the reporting period


                    For which no management decision was made within 6 months of                0
                    issuance




             44
                                                     OIG Semiannual Report   March 2001


   Audit Reports Issued With Questioned Costs


                                   Number of Questioned Unsupported
                                    Reports    Costs       Costs


A. For which no management            18     $6,000,536 $2,886,525
   decision has been made by the
   commencement of the reporting
   period

B. That were issued during the        16     $999,547       $478,031
   reporting period

C. Adjustment related to prior        0          0              0
   recommendations

Subtotal of A+B+C                     34     $7,000,083 $3,364,556

D. For which a management             17     $5,359,407 $2,886,525
   decision was made during the
   reporting period

   i) dollar value of disallowed     N/A     $921,853          N/A
       costs
   ii) dollar value of costs not     N/A     $4,437,554        N/A
       disallowed

E. For which no management            17     $1,640,676     $478,031
   decision had been made by the
   end of the reporting period

For which no management decision      1      $641,129           0
was made within 6 months of
issuance




                                                                             45
Statistical Data


                   Additional Performance Information
                        As required by the Inspector General Act of 1978, we provide tables in each
                   Semiannual Report to the Congress that give statistical information on work conducted
                   by our audit and investigations units. We developed two other tables to provide
                   additional insights about the work of our office: “Cost-Sharing Shortfalls” and “Internal
                   NSF Management Recommendations.”

                   Cost-Sharing Shortfalls – NSF seeks to leverage its resources by acting as a catalyst,
                   promoting partnerships, and, in some cases, obligating grantees to contribute
                   substantial non-federal resources to a project. When NSF award documents require
                   substantial cost sharing, we seek to determine whether grantees are in fact providing
                   promised resources from non-federal sources.

                         We have two categories of cost-sharing shortfalls. Shortfalls occurring during
                   the life of a project indicate that the grantee may not be able to provide all promised
                   resources from non-federal sources before completing the project. Shortfalls that
                   remain when a project is complete demonstrate that a grantee has in fact not met
                   cost-sharing obligations. These findings result in formal questioned costs. The table
                   on page 47 provides statistical information about shortfalls occurring during the course
                   of a project and at the completion of the project.

                   Internal NSF Management Recommendations – OIG staff members regularly review
                   NSF’s internal operations. These reviews often result in recommendations that are
                   designed to improve the efficiency and effectiveness of NSF operations.

                        We routinely track these internal management recommendations and report to
                   NSF’s Director and Deputy Director quarterly about the status of our
                   recommendations. The table on page 48 provides statistical information about the
                   status of all recommendations that involve NSF’s internal operations.




             46
                                                                 OIG Semiannual Report   March 2001


Audit Reports Involving Cost-Sharing Shortfalls

                                Number        Cost-      At Risk of     Actual
                                  of         Sharing    Cost Sharing Cost Sharing
                                Reports     Promised      Shortfall   Shortfalls
                                                         (Ongoing    (Completed
                                                          Project)     Project)


A. Reports with monetary          9       $24,383,764 $10,388,386     $2,456,509
   findings for which no
   management decision has
   been made by the
   beginning of the reporting
   period:

B. Reports with monetary          5       $3,789,774     $799,590       $70,421
   findings that were issued
   during the reporting
   period:

C. Adjustments related to        N/A           0             0             0
   prior recommendations

Total of Reports with Cost        14      $28,173,538 $11,187,976     $2,526,930
Sharing Findings (A+B+C)

D. For which a management         10      $25,155,264
   decision was made during
   the reporting period:

   1. Dollar value of cost-      N/A          N/A       $10,696,517     $69,244
      sharing shortfall that
      grantee agreed to
      provide.
   2. Dollar value of cost-      N/A          N/A            0        $2,387,265
      sharing shortfall that
      management waived

E. Reports with monetary          4       $3,018,274     $491,459       $70,421
   findings for which no
   management decision has
   been made by the end of
   the reporting period.




                                                                                         47
Statistical Data


                       Status of Recommendations that Involve
                       Internal NSF Management Operations


                   Open Recommendations
                   Recommendations Open at the Beginning of the Reporting Period                                 12
                   New Recommendations Made During Reporting Period                                              11
                   Total Recommendations to be Addressed                                                         23

                   Management Resolution of Recommendations1
                     Awaiting Resolution                                                                         11
                     Resolved Consistent With OIG Recommendations                                                12

                   Management Decision That No Action is Required                                                  0

                   Final Action on OIG Recommendations
                       Final Action Completed                                                                    10
                       Recommendations Open at End of Period                                                     13

                   Aging of Open Recommendations
                      Awaiting Management Resolution:
                          0 through 6 months                                                                     11
                          7 through 12 months                                                                     0
                          More than 12 months                                                                     0

                   Awaiting Final Action After Resolution2
                          0 through 6 months                                                                       2
                          7 through 12 months                                                                      0
                          13 through 18 months                                                                     0

                   1   “Management Resolution” occurs when the OIG and NSF management agree on the corrective
                       action plan that will be implemented in response to the audit recommendations.
                   2   “Final Action” occurs when management has completed all actions it agreed to in the corrective
                       action plan.




             48
                                                          OIG Semiannual Report   March 2001


                                                       List of Reports


NSF and CPA Performed Reviews
                                                                 Better Cost
Report                                    Questioned Unsupported
          Subject                                                Use of Sharing
Number                                      Costs       Costs
                                                                 Funds At-Risk

01-1001   Research association             $79,467           $0      $0    $0

01-1002   Software company                 $14,242      $14,242      $0    $0

01-1003   Science association              $40,235      $20,714      $0    $0

01-1004   Native American association     $421,852     $393,681      $0    $0

01-1005   Computer research company        $54,478      $49,394      $0    $0

01-1006   State department of education          $0          $0      $0    $0

01-1007   State college                    $20,423           $0      $0    $0

01-1008   City school system                     $0          $0      $0    $0

01-1009   Research company                 $84,576           $0      $0    $0

01-2001   Project                                $0          $0      $0    $0

01-2002   Review                                 $0          $0      $0    $0

01-2003   Financial report                       $0          $0      $0    $0

01-2004   Quality control review                 $0          $0      $0    $0

01-6001   University                      $134,069           $0      $0    $0

          Total:                          $849,342     $478,031      $0    $0




                                                                                  49
Statistical Data




                   NSF-Cognizant Reports
                                                                                    Cost
                   Report                                   Questioned Unsupported
                             Subject                                               Sharing
                   Number                                     Costs       Costs
                                                                                   At-Risk

                   01-4001    Research station                   $0        $0         $0

                   01-4002    Science academy                  $549        $0         $0

                   01-4003    Laboratory                    $14,318        $0         $0

                   01-4004    Institute                     $28,150        $0         $0

                   01-4005    Radio company                      $0        $0         $0

                   01-4006    Education association         $45,942        $0         $0

                   01-4007    University association             $0        $0         $0

                   01-4008    Society                            $0        $0         $0

                   01-4009    Institute                          $0        $0         $0

                   01-4010    Zoological society                 $0        $0         $0

                   01-4011    Research association               $0        $0         $0

                   01-4012    Education center                   $0        $0         $0

                   01-4013    University association             $0        $0         $0

                   01-4014    Science education institute        $0        $0         $0

                              Total:                        $88,959        $0         $0




             50
                                                       OIG Semiannual Report   March 2001




Other Federal Audits
                                                                    Cost
Report                                 Questioned   Unsupported
          Subject                                                  Sharing
Number                                   Costs         Costs
                                                                   At-Risk

01-5022   State government                  $0          $0        $491,459

01-5024   Computer science institute   $11,297          $0            N/A

01-5025   University                   $16,674          $0            N/A

01-5026   State government              $3,613          $0        $308,131

01-5031   University                   $29,662          $0            N/A

          Total                        $61,246          $0        $799,590




                                                                               51
Statistical Data


                   Audit Reports With Outstanding Management
                   Decisions
                         This section identifies audit reports involving questioned costs, funds put to
                   better use, and cost sharing at risk where management had not made a final decision
                   on the corrective action necessary for report resolution within 6 months of the report’s
                   issue date. At the end of the reporting period, there is one report remaining open for
                   a period longer than six months. Eighteen of the nineteen reports remaining open at
                   the end of the last reporting period have been closed. The status of recommendations
                   that involve internal NSF management is described on page 48.

                   Open Report Involving Questioned Costs:

                   Report Number     Title          Date to CPO      Dollar Value         Status

                   00-6008           Contractor     8/22/00          $641,129               1


                   Status Codes:

                   1 = Resolution is progressing with final action expected in next reporting period.
                   2 = Information requested from grantee not yet received in full.
                   3 = Further negotiations required before resolution.




             52
                                                                               OIG Semiannual Report      March 2001




Investigations Case Activity

                                     Civil/Criminal                            Administrative
                                        Activity                                 Activity
Active Cases
From Previous
Reporting Period                             24                                        30

New Cases                                      7                                       14

Closed Cases                                   8                                       20

Active Cases                                 23                                        24



Investigations Case Statistics

                                                    Civil/Criminal
                                                      Statistics

New Referrals                                                 1

Criminal Convictions/Pleas                                    3

Civil Settlements                                             0

Administrative Actions                                        1

Investigative Recoveries3                           $108,903.60

3   Investigative recoveries include civil penalties, criminal fines, and funds paid in restitution, as
     well as specific cost savings for the government.




                                                                                                          53
Investigations


                 Administrative Statistics



                  Cases Forwarded to the
                  Office of the Director for Adjudication                                                    2

                  Cases Reported in Prior Periods With No
                  Adjudication by the Office of the Director                                                 14

                  Number of Debarments in Effect During This Period                                          5

                  Assurances and Certifications Received5
                     Number of Cases Requiring Assurances During This Period                                 76
                     Number of Cases Requiring Certifications During This Period                             8
                     Assurances Received During This Period                                                  0
                     Certifications Received During This Period                                              0

                  4 This case is described in our September 2000 Semiannual Report, page 25.
                  5 NSF accompanies some findings of misconduct in science with a certification and/or assurance
                    requirement. For a specified period, the subject must confidentially submit to the Associate
                    Inspector General for Investigations a personal certification and/or institutional assurance that
                    any newly submitted NSF proposal does not contain anything that violates NSF’s regulation on
                    misconduct in science and engineering. These certifications and assurances remain in OIG and
                    are not known to, or available to, NSF program officials.
                  6 One of these cases is described in our September 2000 Report, page 26. Although ultimately

                    not considered a misconduct case, NSF required the subject and his institution to submit to
                    NSF for 3 years assurances with any proposals involving biohazardous research.




           54
                                                                 Acronyms
ASA      Antarctic Support Associates
CAAR     Cost Analysis and Audit Resolution
CFO      Chief Financial Officer
COI      Conflict of Interests
DAEO     Designated Agency Ethics Official
DCAA     Defense Contract Audit Agency
DCIS     The Defense Criminal Investigative Service
DMII     Design, Manufacturing and Industrial Innovation
ECIE     Executive Council on Integrity and Efficiency
EPSCoR   Experimental Program to Stimulate
         Competitive Research
ERC      Engineering Research Centers
IDS      International Database Systems
MRE      Major Research Equipment
NASA     National Aeronautics and Space Administration
NCURA    The National Consortium of University
         Research Administrators
NCURA    The National Council of University
         Research Administrators
NSFC     The National Natural Science Foundation of China
OMB      The Office of Management and Budget
OPP      Office of Polar Programs
ORI      The Office of Research Integrity
OSTP     The Office of Science and Technology Policy
PCIE     President’s Council on Integrity and Efficiency
PI       Principal Investigator
R & RA   Research and Related Activities
USAP     United States Antarctic Program
SBIR     Small Business Innovation Research
SPFE     South Pole Safety and Environmental
SPSM     South Pole Station Modernization



                       OIG Semiannual Report • March 2001   55
For Additional Copies or Information Write:
Office of Inspector General
National Science Foundation
4201 Wilson Boulevard, Suite 1135
Arlington, VA 22230

       Visit our new web site:

       oig.nsf.gov

       Call:

       (703) 292-7100

       Our report and strategic plan are available on the web:

       www.nsf.gov/cgi-bin/getpub?oigmarch2001
       www.nsf.gov/oig/stratplan.pdf

       Use our electronic mail hotline:

       oig@nsf.gov

       or call anonymous hotline:

       1-800-428-2189

       For outreach presentations e-mail us:

       oig-outreach@nsf.gov
